             PHYSICIAN DRUG DISPENSING
                     AN OVERVIEW OF STATE REGULATION




        SiRYIC,-S.



f!




       lrt,U(J


     OFFICE OF INSPECTOR GENERAL
     OFFICE OF ANALYSIS AND INSPECTIONS
                                                       MAY 1989
                        OFFICE OF INSPECTOR GENERAL
The mission of the Offce of Inspector General (OIG) is to promote the effciency, effective­
ness, and integrty of programs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing methods to detect and prevent fraud, waste , and
abuse. Created by statute in 1976, the Inspector General keeps both the Secreta and the Con­
gress fully and curently informed about programs or management problems and recommends
corrective action. The OIG performs its mission by conducting audits , investigations , and in­
spections with approximately 1,200 staf strategicaly located around the countr.


                    OFFICE OF ANALYSIS AND INSPECTIONS
This report is produced by the Office of Analysis and Inspections (OAI), one of the thee
major offices within the OIG. The other two ar the Office of Audit and the Office of Inves­
tigations. OAI conducts inspections which are typically short- term studies designed to deter-
mine progr effectiveness , effciency, and vulnerability to frud or abuse.

This report ,entitled " Physician Drug Dispensing: An Overview of State Regulation " offers
an exploration of State approaches to regulating physician drg dispensing.

The study was cared out under the direction of Mark R. Yessian , Ph.D., Regional Inspector
General , Offce of Analysis and Inspections , Boston Region. Paricipating in the project were
the following people:


Boston Region
                                              Headquarters
Martha B. Kvaal (Project Leader)
                           Alan S. Levine
Joyce M. Greenleaf

Christine N. Olson

Lauren A. Smith
Eleanor M. Ellis

Lisa A. Padova

Daniel R. Simmonsn Offce of Audit

           PHYSICIAN DRUG DISPENSING
                    AN OVERVIEW OF STATE REGULATION




                          RICHARD P. KUSSEROW
                           INSPECTOR GENERAL




OAI- 01- 88-00590
                                                      MAY 1989
                         g..                                                                    \\'




                                                               AK- AZ   R'.   SII   In'   IVA



          SITUATIONAL RESTRICTIO;\S
          PhYS Ician  disping is
          p::muu. only when.

         a. SiD.aon is an em	      c.c
            LO mce th immcte
            ne of   th paaJL

         b. Ptacy soiccs an nO(
              'aiable (e.
            are. spifte dita.
            ph:cy dos)

  II.	   REQUIREMENT FOR DISPE:"SING
         PRI\LEGE
            Dispsing physicia       mll
            have 3pproval or 

            polullcens ira or muiit
           n=gisu: wiLh a Swe agency
         d. Dispsing J)ysicia mUS

           mc. ed           on rewr'Tc="ItS
  m. COST .& PRICING REQL1RDIE

           !i.l::d 5e()telv    rr oifc:
         e. Prscpcon chages musr t­

           ';Sit ::h:ges 00 IXtI m bill
         r. PrscDDon ches or mniLS
           3r prhibitO           retrcit
    . PATIENTCHOICE
         g. Writt
           prvided to paO1tS

         h. P;uients mus be advi     of
           cl....
           chice 10 fi



           quot up reue po
           Drg prce mus be

         PROCEDURL REQUIDfE
         ption drgs d1     ns by
     phYSK:J. ;m subject to:

          Labelling rcwrnLS
     L Record k:eeing ro            ..nC1ts
          ror 3.1 legend drgs

          Storge      n:uic:ts
    m. Seurty n:uUClts for
          drg IMemory

    n. Persna         di
          supesi by dinsg
          j))'Sicia
    o. DispnsaLion is limj	 d 1. a
          'SlCia' S own paans


n OrnER REQUIREME

   (s. Appenf II)
NOli: ReOccLS Sw. regution in c:fc:t as of 8/1188. and e:acludes

          Fera reuirentS ior comrollc. subs:es and child-resitat I
          Do not reOe reent stJD.tO ch.gc: in MD an V A which az
         aWdJang   prulga oi n:gulLions prOf to implemetaon.
. A5 of 8/1/88 thes Swc do not regul. physicia dispng.
So: Swc regulafa boagenie                     as repo 10 OIG
Pn          by: DHHIOIGIOAI Region I                                                            /II8S
                                 EXECUTIVE SUMMARY


PURPOSE

The purose of this inspetion was to promote a better understandig of State regulation of
physician drg dispensing. It focused primarly on determning the extent and
                                                                                  tye of State-
regulation , and on exploring the effectiveness of State approaches to the practice and the out-
look for the futue.

BACKGROUND

This inspection grew out of the Inspector General' s interest in fuer understadig the issues
surounding the growing practice of physician dispensing. It is based on thee lies       of in­
quir: (1) telephone discussions with representatives of State regulatory agencies, primary
the boards of medicine and pharacy, (2) a review of the literatue, and (3) discussions with
representatives from national organizations and varous Federal agencies.

FINDINGS

The Incidence Of Physician Dispensing Across The       Countr Is Relatively Low But Seems
To Be Growing.

     Three-fours of those regulatory offcials offering an estimate       believe that 5 percent or
     less of the physicians in their States are dispensing for profit.

     Half of all respondents thought the practice has been increasing in their States, and most
     expected this growth to continue.

The States Have Imposed Various Types Of Requirements To Regulate Dispensing By
Physicians.

     Nearly all States have some type of regulation governing the dispensing of drgs by
     physicians.

     Among the States , there are five major types of regulatory requirements governing
     dispensing by physicians. These include requirements that: (1) permt dispensing only
     in limted situations, (2) enable State agencies to identify dispensing physicians , (3)
     limit profits on drgs dispensed by physicians , (4) protect freeom of choice for
     consumers , and (5) impose procedural controls such as labeling and record keeping.
Overall, State Requirements Regulating Dispensing By Physicians Are Much Less
Extensive Than Those Regulating Phannacists And Have Minimal Impact On The Practice.

      States have extensive regulation governing the dispensing of prescription drgs by
     pharacists.

     In a majority of States, the regulation governing the dispensing of prescrption drgsois,:
     much less restrctive for physicians than for pharcists.

     The thst of recent State regulatory activity has been to strengthen controls over
     dispensing by physicians rather than to prohibit the practice.

     A large majority ofrespondents considered the enforcement of their States
     requirements for physician dispensing as being no more than moderately effective.

     A varety of constraints, especially limted resources and frgmented regulatory
     responsibilties, have hampered States ' efforts to enforce their regulatory requirments
     for physician dispensing.

Considerable Support Exists Among State Regulatory Offcials For Further Regulation Of
Dispensing By Physicians.

     Two- thirds of all respondents thought it very important for physician dispensing to be
     regulated in their States.

     Nearly two-thirds of regulatory board/agency officials contacted reported complaints on
     physician dispensing during the last 2- 3 years. Complaints were reported by at least one
     board/agency offcial from three- fourths of all States, including those with and without
     regulation.

     Many respondents from States with regulation thought stronger requirments     were
     needed.

     Nearly half of all respondents thought Federal action addressing the practice of
     physician dispensing was not necessar; a third favored it, and nearly 10 percent
     thought it might be needed.
RECOMMENDATIONS

The State Governments

       STATE GOVERNMENTS SHOULD TAK INmATIES TO                            PROMOTE
       STRONGER , MORE EFFCTIVE REGULATION OF PHYSICIAN DISPENSING. -

Effective regulation of drg dispensing is important to protect the public and to ensur ac- . . .
countabilty in the drg distrbution system. States have extensively regulated dispensing by
pharacists, but most have minima reuirments gove ing physician dispensing. States, at
the very least, should adopt a basic thshold of regulation for dispensing physicians which in­
cl udes:

           procedural requirments such as labeling, record keeping, and supervision which are
           similar to those applicable to pharacists;

           registration requirements so States can identiy physicians who are actually dispens­
           ing; and

           requirements which protect freedom of choice for patients to buy their prescrptions
           from either their physician or their pharacist.

      STATE GOVERNMENTS SHOULD TAKE STEPS TO STRNGTHN THIR
      ENFORCEMENT OF REGULATION GOVERNING PHYSICIAN DISPENSING.

Effective regulation of physician dispensing is hindered by constraints on States ' efforts to c;n
force curent requirements. These efforts could be strengthened by such actions as providing
more resources to State regulatory agencies and by defining more clearly the authority and
responsibilities of these agencies, including their ability to inspect routinely the offces of dis­
pensing physicians.

The National Associations

      TH FEDERATION OF STATE MEDICAL BOARDS AND TH NATIONAL
      ASSOCIATION OF BOARDS OF PHARMCY SHOULD WORK TOGETHR IN
      HELPING STATES TO PROMOTE STRONGER, MORE EFFCTIV
      REGULATION GOVERNING PHYSICIAN DISPENSING.

These associations can provide furher leadership to State boards by addressing jointly the
respective authorities and responsibilities for regulation of physician drg dispensing which af­
fect both the professions of medcine and pharacy.
                                                                                      ,._





COMMENTS

The Assistat Secreta for Planning and Evaluation , the Health Care Financing Admistra­
tion , and the Public Health Servce (PHS) were al in genera agrment with our recommenda­
tion that the States should contiue to assume primar responsibilty for regulatig physician
drg dispensing. The PHS , however, disagr with our reommendation for stronger, more
effective regulatin. Other comments from these agencies, as well as coments from othez.
agencies outside the Deparent and from national organizations, reflect a range of opinion
pro and con, about our findigs and reommendations. A summar of these comments and
our response to genera issues rased appear at the end of the report. Detaed comments and
our responses to them appear in appendix 1.
                                                                                                                                                                        . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. ..
                                                                               . .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... .... ... ... ... ... ... ... ... ... ... ... .. .. .. .. .. .. .. .. .. .. .. ..




                                                                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

FINDINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                                   The incidence of physician dispensing across the country is relatively
                                    low but seems to be growing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                                   The States have imposed various types of requirements to regulate
                                   dispensing by physicians. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


                                   Overall , State requirements regulating dispensing by physicians are
                                   much less extensive than those regulating pharmacists and have
                                   minimal impact on the practice. 




                                  Considerable support exists among State regulatory officials for further
                                  regulation of dispensing by physicians. . . . . . .

RECOMMENDATIONS............................................. .

COMMENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. ... .. .. . . . . . . . . . . . 19
APPENDIX I

                                  Detailed Comments on the Draft Report and OIG Response to the
                                 Comments. . . . . . .

APPENDIX

                                  Methodologica Notes. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                         . . . . . . . . .44
APPENDIX II

                                Other Regulatory Requirements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                          . . .48
APPENDIX IV

                                Endnotes. . . . . . .                                                                                                                                                     . . . . . . . . . . . . 49
                                       INTRODUCTION

This inspection grew out of the Inspector General' s interest in gaing a better understadig
of the issues involved in the curent contrversy surounding the practice of physicians dis-
pensing drgs.



Physicians have always dispensed drgs to some degree as par of the practice- of medcine:
However, ths practice has attrcted more attention of late because increasing numbers of
physicians ar dispensing, often at a profit , the drgs they prescrbe for their patients. The
practice has grown as the nation s health system has become incrasingly competitive and
cost-conscious, and has been encourged by the drg repackagig industr which has emerged
durg the early to mid- 1980s. Drg repackagers buy and then repackage commonly
prescrbed drgs into convenient,    unit-of-use sizes ready for physicians to sell diectly to
patients. They have sought to capitalize on the increasingly competitive health car     environ­
ment by encouraging physicians to dispense the drgs they prescribe. Repackagers have cited
advantages of convenience to patients and improved quality of patient car from offce- based
dispensing, but some of them have promoted dispensing to physicians as a highly lucrative
source of additional income.

No one knows for certain the magnitude of the revenues being realized by physicians as a
result of drg dispensing, but industr spokespersons and some financial analysts predict
dramatic growth in the industr. Revenues realzed by repackagers may incrase frm an es-
timated $25 millon last year to as much as $400 millon to $500 million by 1990 and possibly
as much as $2 bilion within 5 to 7 years

The prospect of increasing numbers of physicians routiely      dispensing     drgs for profit has
captured the attention of pharacy, consumer, and medical groups as well as the State and
Federa Govemments. Heated debate about the practice is being waged at both the State and
national levels over a complex varety of ethical , economic, public health , and regulatory is-
sues related to the practice. 3 Is it a conflct of interest for physicians to sell the prescription
drgs they prescribe? Is the quality of patient car enhanced or hared by physician dispens­
ing? Does the practice promote or restrain competition? Wil consumers pay more or less for
prescriptions dispensed by physicians? What kind of regulation of the practice is waranted
and should regulation occur at the State or Federal level?

The Federa Government has become more involved with this issue in recent years. Staf
from the Federal Trade Commission (FTC) have sought to discourage the States frm prohibit-
ing or unreasonably restrcting physician dispensing of prescription drgs. They have sug­
gested that dispensing by physicians enhances competition in the prescription drg market and
may lead to lower prices and better services. On the other hand , the U. S. Congress has been
moving in a different direction with respect to physician drg dispensing. In the last session
it considered legislation to prohibit licensed practitioners from dispensing drgs for profit ex­
cept in special situations. This bil , which would have amended the Federal Foo, Drug, and
Cosmetic Act admnistered by the FDA , attracted widespread attention from Federal agencies
and medical , pharacy, and consumer groups.
                                                                                                ..




Prsent Federal requirments affectig dispensing by   physicians ar lited priary to con-
trolled substances, the labelig and packaging of drgs, and the distrbution of drg samples.
Under the terms of legislation admstere by the Drg Enforcement Admstration of the
Deparent of Justice, those who dispense controlled substaces ar subject to registration
record- keeping, securty!mventory, and cert labelig and packagig reuiments. . In addi­
tion , prescription drgs dispensed by physicians as well as by pharacists ar subject toth
child-resistant packagig reuiments contaned in the Poison Prvention Packagig Act of
1970 admnistere by the U. S. Consumer Pruct Safety Commssion. The Federa Foo,
Drg, and Cosmetic Act contans labelig and packaging       requiments for prescrption drgs,
and reent amendments to the Act prohibit the sale of drg samples and impose other requir­
ments involving physicians on the distrbution of samples.

Other than the requirments of the Federa Foo,    Drug, and Cosmetic    Act, the dispensing of
drgs by physicians    has attrcted little attention from the Deparent of Health and Human
Services (HS). According to offcials from the Health Care Financing Admnistration
(HCFA), the agency has taken no position on the practice of physician dispensing in its most
recent guidelies to the States for the Medcaid progr, although some States reimbure
physicians for the drgs they dispense to Medicaid recipients. Since we began our study last
winter, the Congress enacted the Medcare Catastrophic Coverage Act of 1988. According to
congressional and HCFA staf with whom we spoke , physicians as well as pharacists can par-
ticipate in the new outpatient prescription drg progr provided they meet and/or agree to
the criteria specified in the Act.

Over the years , however, the State govemments, rather than the Federal Government , have
played the major role in regulating the dispensing of prescription drgs by both physicians and
pharacists. Pharacists are the       priar  dispensers of prescrption drgs in this countr. As
such , the profession is guided by national stadards of practice, and the practice of pharacy
has been highly regulated by the States in order to protect the public and to assure account-
ability for the distrbution of drgs.

Comprehensive information about the States ' regulatory approaches to the dispensing of
prescription drgs by physicians has not been readily available. Yet better understanding of
these approaches is important to Deparent policymakers as they consider the signifcance of
physician drg dispensing for its programs. Accordngly, we conducted this inspection to ex­
amne State approaches to regulating the dispensing of prescription drgs by physicians. (In
this inquir, we were primarly interested in State regulation applicable to dispensing in
amounts larger than samples or starer dosages. ) We were parcularly interested in the extent
of regulation among the States, the natue of the regulatory requirments imposed , and percep­
tions from State regulatory officials about the effectiveness of States ' requirments and enfor­
cement effort.

We gathered information through: (1) telephone discussions with the stafs of boards and
agencies involved in regulating physician dispensing (primarly the medical boards and the
pharcy boards), in all 50 States and the Distrct of Columbia; (2) a review of the literature
includig congressional hearngs, studies and analyses , arcles from the popular media and
professional jourals , and publications and papers from varous private and public organiza­
tions; and (3) discussions with the sta of national organizations includig the American
Medcal Association , American Pharaceutical Association, Competitive Health Car Coali­
tion (representig drg repackaging companies), Federation of State Medcal Boards, National
Association of Boards of Pharacy, National Association of Chain Drg Stores, NARD
(formerly National Association of Retal   Drggists) and frm other. Federa agencies includng
FDA and HCFA within the Deparnt as well as with the Fedral Trade Comssion , Drg;,
Enforcement Admnistration of the Deparent of Justice, and the U. S. Congress. (For more .
information on our methodology, see appendix IT.

This report presents our findings relate to State regulation governing the dispensing by
physicians of prescription drgs in amounts greater than samples. It begins with an overview
of estimates of the incidence of physician dispensing, the extent of regulation among the
States and the types of regulatory requirments they impose. It then turns to a consideration
of the effectiveness of these regulatory efforts and of the outlook for furer government
regulation of this practice. It concludes with our recommendations for action addressed to
State governments and to the national organizations representing the State boards of medcine
and pharacy.
                                           FINDINGS

The Incidence Of Physician Dispensing Across The Countr Is Relatvely Low But Seems
To Be Growing.

      Thr- fours of those regulatory offcials offerig an estiate thought that 5 percent or
      less of the physicians in their States are dispensing for profit.


There is considerable uncertty about the incidence of physicians who ar dispensing for. .€
profit across the countr. Estimates most fruently appearg in the meda are that

5 percent of physicians ar dispensing for profit. 6 In an effort to determe the incidence€
more preisely, we asked regulatory offcials about the proporton of physicians dispensing for

profit in their States.



Of those regulatory board/agency officials offering an opinion , the- fourhs thought that no
more than 5 percent of the physicians in their States are dispensing for profit. In fact, a third
gave the figure of less than 1 percent. Only 15 percem of these officials thought the
prevalence of dispensing for profit is greater than 10 percent in their States.

On the other hand , nearly half the offcials with whom we spoke would not estimate the
proportion of physicians dispensing for profit in their States. Even respondents from the 13
States with requirements for registrtion were sometimes uncertai about the prevalence of the
practice because their registration reuirments do not distinguish between those physicians
who register thinng they might dispense and those who actualy do dispense, nor do they dis-
tinguish among those who dispense for profit , at cost , or without charge. Moreover, none of
the officials was aware of any analyses or surveys related to the incidence of the practice in -.
their States.

      Half of the respondents thought the practice has been increasing in their States , and
      most of them expected this growth to continue.

Neverteless, despite the uncertnty about the exact number of dispensing physicians, half of
all the offcials with whom we spoke thought the number of physicians dispensing for profit in
their States has been increasing durng the last 2 or 3 years. This opinion was offered by at
least one respondent from nearly the- fours of the States. Nearly the- fourts of these off­
cials expected this growth to cominue in the futur. They offered as reasons economic pres-
sures facing physicians practicing in an increasingly competitive environment and the
aggressive marketing efforts of the drg repackaging companies.

The States Have Imposed Various Types Of Requirements To Regulate Dispensing By
Physicians.

      Nearly all States have some type of regulation governing the dispensing of drgs by
      physicians.
                                             "".




Forty- five States, including the Disnict of Columbia , report having some tye of reguation
governing the practice of physicians dispensing drgs from their offces. Only six States
reported no regulation governing the dispensing of both controlled and non-contrlled drgs.

Although most States began regulating physician dispensing a number of years ago, their
regulatory activity has increased considerably within the past 2 or 3 year.                       Durg th$ tie,,,
over half the States have considere regulatory changes. Twelve States have institutedregula
tion for the fist time , and eight States have modfied existing reuirments. In nie States, .
proposed changes are currntly awaitig action by legislaturs, regulatory boards, or the
cour.
The States have regulated physician dispensing primarly to safeguard the health of the public.
Respondents to our inquires mentioned public health concerns alost twce as often as any
other reason for their States having institute regulation originaly (see figu I).

                                                               FIGURE I


                            MAJOR REASONS FOR STATE REGULATION OF
                             PHYSICIAN DISPENSING , AS PERCEIVED BY
                                  STATE REGULATORY OFFICIALS
                                "'...nlag ol...po,,".nll
                                                                           l.nR        .uONR
                                                                          .Prollotthlpubllo
                                                                                  Corf8ot'bu'el
                                                                          1m Pf8lnt abu...
                                                                          E3 Mldlclne n phumaoy
                                                                          mT Interlit groupe
                                                                          DConllotollnl1r..t




                                                ".fo,....on.
                      i.:      srlt8 '1lIUlltgry 0110:111..
                      ..por18d II til QUi,
                      1i: N."".,IOIOI"II.


Other factors included problems and abuses associated with physician dispensing such as drg
diversion and improper labeling. Some States regulated the practice on the premise that dis­
pensing by physicians constitutes a conflct of interest; others wante to preserve the trdition­
al responsibilties of medicine and pharacy: physicians prescribe for patieius, and
pharacists dispense the prescriptions.


Recent regulatory activity in the States seems to have been niggere by many of these same
concerns as well as, in some States, by uneasiness over the promotional efforts of drg repack-
aging companies. Although sta from the FTC have sought to discourage some States from
prohibiting or unreasonably resnictig physician dispensing, respondents frm al but a few
States thought that their efforts had had little , if any, effect on their States ' attitudes toward
regulation. State pharcy associations and boards, more often than medcal associations and
boards, were mentioned by respondents as having been the drving forces behind State regula­
tion of the practice.

           Among the States , there are five major tyes     of regulatory requirements   governg
           dispensing by physicians.

The States have imposed a wide varety of regulatory requiements on physicians who ar               dis-
pensing drgs. We have grou ed these regulatory requirments into five major tyes              ofregula-
tion (see figur ll) as follows:


Type I:          SITUATIONAL RESTRICTIONS

                 Regulation of this type permts dispensing by physicians only in    lited
                                                                                    situations,
                 such as medical emergencies or occasions when pharacy services ar unavail-
                 able or the physician is fillg   the   patient's imedate nees. Five States have re­
                 quirments of this type.

Type       II:   REQUIREMENTS FOR DISPENSING PRIVILEGE

                 Regulation of this type mandates that dispensing physicians identify themselves to
                 State regulatory boars/agencies. lO Although 13 States have this    tye ofregula-
                 tion , the specific Tequirments var considerably among them. Thre States re­
                 quir the physician to receive prior approval from the medcal board or, in one
                 case, to apply for a permt from the pharacy board if the dispensing wil be for
                 profit or wil be more than an occasional practice. The remaining 10 States simply
                 require dispensing physicians either to register with the medical boards when
                 renewing their medical licenses or to register with or obtain permts from the phar­
                 macy boards or other State agencies. Two of these States reportedy have fees as­
                 sociated with the registration/permt reuirement. One State reuires dispensing
                 physicians , in addition to registering, to complete 6 hours of continuing education
                 each year to leam about their legal responsibilties and the State s regulatory re­
                 quirments.

Type II:         COST AND PRICING REQUIREMENTS

                 Regulation of this type limits the amount physicians may charge for the drgs they
                 dispense. Of the seven States with this type of regulation, five prohibit physicians
                 from dispensing for profit. One State permts rura physicians only to charge for
                 the cost of the drgs, and one State prohibits physicians from chargig " excessive
                 fees.

                 The requirement that prescription charges be listed separtely from other medical
                 charges on patients ' bils was not reported to be par of any State s curent regula­
                 tion of physician dispensing.
                                                                                                .,,,





Type IV:    PATIENT CHOICE

            Regulation of this tye includes reuirements designed to protect from of
            choice for consumers in deciding whether to purchase their prescrptions from their
            physicians or from pharacies. Four States requir physicians to provide or offer
            to provide patients with wrtten prescriptions and/orlo advise them that they CaI
            fil their prescriptions elsewhere if they wish. Two States reuire physicians to.
            post or quote prescription prices.

Type V:     PROCEDURAL REQUIREMENTS

            Regulation of this tye lits dispensing to the physicians ' own patients and also
            extends to dispensing physicians some of the same regulatory contrls mandate
            by the States for pharacists. Although virually all States have at least one re­
            quirment within this type, only about one-fourth of them mandate al or even
            most of these requirements for physicians who are dispensing.

           Most States have requirements for labeling drgs dispensed by physicians and re­
           quirments which specify who may legaly dispense drgs with the physician
           office. Slightly more than hal the States have record keeping reuirements and
           lit dispensing to the physician s own patients. Fewer than hal the States have re-
           quirments addrssing the storage of drgs and the securty of the inventory within
           the office.€


Accordig to the regulatory board/agency officials with whom we spoke, the most crucial of
their regulatory requirements ar the procedural requirements (Type V regulation). Among
these, respondents most frequently mentioned as especially important the labeling and record
keeping requirments and those that authorize dispensing only by the physicians themselves
not by other offce personnel. Manyrespondents also identified regulation requirng some
kind of registration (Type II regulation) as critical so that boards/agencies can identify who is
dispensing in order to monitor compliance with State regulation.

We found , fmally, that the regulatory requirements goveming the practice are , in almost all
States, based in statutes and/or rules (regulations) that specifically address dispensing by
physicians or practitioners. In a majority of States, the regulation that applies to dispensing by
physicians also applies to other practitioners , such as dentists, who are licensed to prescribe
drgs.
Overall, Stae Requirements Regulatng Dispensing By Physicians Are Much Less
Extensive Than Those Regulatng Pharmacists And Have Minima Impact On The Practice.

      States have extensive regulation governing the dispensing of prescription drgs by
      pharacists.

Through laws admnistered by the boards of pharacy, the States have imposed requiments'
regulating the licensure and disciplie of pharacists and the practice of pharacy itself. All
States require, as conditions of licensure , that pharacists be graduates of accredted colleges.
of pharcy, that they have practical or internship experience, and that they pass examnations
given by the pharcy boards. Most States also impose contiuing education requirments
for relicensur of pharacists. In addition , pharacies must be registere with State phar­
macy boards, and they ar subject to inspections by State authorities. Moreover, State phar-
macy laws detai a varety of reuirments goveming the practice of pharacy, includig
availability of approved reference materials and equipment, the supervision of the dispensing
process , as well as the labeling, record- keeping, and storage of prescription drgs.

      In a majority of States , the regulation governing the dispensing of prescription drgs is
      much less restrctive for physicians than for pharacists.

Although , as we have seen , most States have imposed varous reuirments on the dispensing
of prescription drgs by physicians, overal these requirements in most States are much less
far-reaching than those for pharacists. In virally all States, physicians are permtted to dis­
pense drgs without being licensed as    pharacists, and therefore ar not bound by most of the
specific requirements goveming the practice of pharacy.

Indeed, as indicated in figur II , six States reportedy imposed no regulation on dispensing by"
physicians. Of the remaining 45 States reportng regulation of dispensing by physicians, our
analysis suggests that over 50 percent, or 25 States, have requirements which exert only mini­
mal restrctions on the practice (see figure II). In these States the regulation governing dis­
pensing by physicians is limited to the procedura requirements (Type V) only. Although
these States var in which and how many of the proedural reuirements they impose, none
has mandated any other tye   ofregulatory requirment in    order to control more tightly the
practice of dispensing by physicians. Interestingly, thre of the four States withthe largest
number of practicing physicians ar among those with minimal restrctions.

Thireen States have regulation that places moderate restrctions on physicians who dispense.
Regulation in these States includes some or al of the procedural requirements (Type V). In
addition , these States impose other types of regulation which exert more control over the prac­


IV).
tice, such as requirements that dispensing physicians identiy themselves to regulatory
boards/agencies (Type II), limit fees and profits (Type II), and/or protect patient choice (Type
                                                    FIGUR II€


       RESTRCTNESS OF STATE REGULATION OF PHYSICIAS                      DISPENSING DRUGS
                                         A STATE- BY- STATE OVERVI




                                                                                                        LEGEND
                                                                  EXlremely Restrctive Regution (4) II
                                                                         Ver Restrctive Reguation (3)
Bas on tys of Slate regultion reported to the OIG
by State regutory bo/agencies.                                  Moerately Restrctive Regution (13)


                                                                Mialy Restrctive Reguation (25)
August 1988€                                                                               No Reguation (6)
Only seven States have regulatory reuirments that signifcantly restrct the practice of
physician dispensing. Thee of these States permt dispensing but use the registration
requirement to limit the number of physicians engaging in the practice (Typ II. In these
States, physicians wishing to dispense must have prior approval of the medcal or pharcy
boards which reportedy seldom grt permssion. Finally, four States have regulation that is
extremely restrctive-- they allow dispensing by physicians only in very lited situations
(Type I). The regulation process in these States is looked upon as a way to prohibit the prac
tice. (See appendix II for a more detailed description of our tyology.

      The thst of recent State regulatory activity has been to strengten controls over
      dispensing by physicians rather than to prohibit the-practice.

Twenty States implemented new regulatory requirements governing dispensing by physicians
durig the last 3 years. In all these States , the changes strengthened controls placed on dis-
pensing physicians. No State reported having reuced existig requirements or having
prohibited dispensing by physicians. The four States which viraly prohibit the practice
adopted this regulatory approach many year ago. Within the past 3 year, only five States
reportedly have considered prohibiting physician dispensing. Four of them decided against it,
and one is stil considering a legislative proposal to prohibit the practice.

In moving to strengthen controls over dispensing by physicians, nearly thee-fours of these
States have added some of the procedural requirements, and half have imposed registrtion re-
quirments. Five of the seven States with patient choice reuirments added them durg this
period.

      A large majority ofrespondents considered the enforcement of their States
      requirements for physician dispensing as being no more than moderately effective.

The States ' efforts to enforce their regulation goveming physician dispensing were viewed as
being no more than moderately effective by thee- fourhs of all respondents frm State
regulatory boards/agencies. Pharacy board respondents were much more critical of enforce-
ment efforts than were medical board respondents (see figure IV). Nearly 50 percent of the
pharacy board respondents thought enforcement has been minimally or not effective com-
pared with only 8 percent of medical board respondents. Although one-thid of the medcal
board respondents rated enforcement as very effective, it is interesting to note that nearly an
equal number said they did not know how effective their States ' efforts have been.

Perceptions about the effectiveness of a State s enforcement efforts corresponded diectly with
the restrctiveness of its regulation (see figure V). Respondents from those States with less
restrctive regulation were more critical of their States ' enforcement efforts than were respon­
dents from more highly restrctive States. Only respondents from the minimally or moderate­
ly restrctive States thought their enforcement has been minimally or not effective. On the
other hand, every respondent from the seven most restrctive States thought that enforcement
has been either moderately or very effective in their States; in fact, nearly 70 percent
gave very effective " as their response.
                                                                 !!




                                          FIGURE IV€



      EFFECTIVENESS OF STATES' ENFORCEMENT
      OF REGULATION OF PHYSICIAN DISPENSING€
      AS PERCEIVED BY STATE BOARD OFFICIALS
    0011..0010"8..1""....€


                      Very€                                      TYPE OF RESPONDENT
                                                                       Medical Board
                                                                      Pharmacy Board
              Moderately€


       Minimally or not




              Don t know


                                  o 10 20 30 40 60
.I,
..ponadlDl"'OIG,.....
bl, N."      """0"'1111.
                              "'.....'all."'.._,or,...pondln..
          etat8boardoIlIcJar...




                                          FIGURE V



      EFFECTIVENESS OF ENFORCEMENT. BY
      RESTRICTIVENESS OF REGULATION, AS
   PERCEIVED BY STATE REGULATORY OFFICIALS
          Percentage of respondents€
                                                                 EFFECTIVFNE€
                                                                      Very.tleatlve€
                                                                      Modererely.lfllotl..€
                                                                      Mlnlmally.lt,otlve
                                                                 fP Not etleot...
                                                                 o Don t know




        Extremely/Very Moder.hlly Mlnlmilly
           RestrlcllveneS8 01 atate regulatIon
.I,81.".8I1ulator,olliolal...€
"PO'"'' to Iho 010, 1118.,€
       M'811"'lIon"'nl.€
Most of the States ' enforcement effort have focused on responding to    complaits and
disciplinar actions agaist physicians. Most respondents thought their boars/agencies were
                                                                                         tag
responsive to complaints, but very few States reportedy inspect the offces of dispensing
physicians on a routie basis to ensure compliance with State reuirements. With the Iast3
years, about one- thd of the States have taen discipliar action agaist physicians for.
abuses associated with dispensing. Most frequently these actions have ben for improper
labeling or varous kinds of inappropriate dispensing lie overprescrbing. . In' an equal number
of States, disciplinar cases ar either pending or under investigation.

Respondents from a few regulatory boards specifically mentioned their efforts to famliarze
physicians with the requirements for dispensing thugh mailings, newsletters, and semiars.

Despite these efforts , enforcement of regulatory requirments governng physician dispensing
was considered to be of relatively low priority accordng to respondents from many States. In
fact , a few respondents said their States made no effort at all to enforce their requirements.

      A varety of constraints, especially limted resources and frgmented regulatory
      responsibilties , have hampered States ' efforts to enforce their regulatory requirments
      for physician dispensing.

The States ' effort to enforce their regulatory requirments governing physician dispensing
have been constraied by several factors: inadequate resoures for regulatory boars/agen­
cies, limited abilty to inspect dispensing physicians ' offices, ambiguous regulatory reuir­
ments, and diffuse responsibility for enforcement within some States.

The major constraint seemed to be insuffcient resoures.    By a wide margi, respondents indi­
cated that this factor, more than any other, diminished their effectiveness. The effects of finan"
cial constraits on regulatory boards was described in a 1986 study of State medcal boards by
the Office of Inspector General (HS):

      In nearly all States , medical board revenues derive entirely from fees imposed on
      physicians. In response to their expanded responsibilties and workloads, nearly all
      boards have raised their fees in recent years. Yet, if one taes inflation into account
      there is hardly any net increase. This, added to the fact that boards arn t necessarly al-
      lowed to spend all the money they collect from fees, has left many of them in an ex­
      trmely vulnerable position , with investigatory and admistrative resources well below
      the level necessar to handle the job before them. II

Second , limted ability to inspect the offces of dispensing physicians on a routine basis was
also frequently mentioned by respondents as a constraint to more effective enforcement. Many
of the regulatory requirments imposed on dispensing physicians , such as requirements to en-
sure patient choice , to restrct profits , and to follow certn procedural stipulations, are dif­
ficult to enforce without on-site inspections similar to those conducted in pharacies by State
authorities. Respondents from only half a dozen States mentioned that their States conduct
routine, proactive inspections of the offices of dispensing physicians. In some instances, the
lack of a routine inspection program results from insuffcient resources. Yet, other factors
come into playas well. Respondents frm severa States mentioned they lack adequate
authority to conduct routine inspections of physicians ' offices. Other States are not able to
identiy readily those physicians who are dispensing. Only 13 States reporty reuir
registration of dispensing physicians. In several of these States, the registration proess does
. not distinguish between physicians actually dispensing and those who register because they .
might dispense at some futur   time.


Third, imprecise regulatory ianguage has served as a constrnt to effective enforcement in a
few States. Two States , for example, have reuirments that prohibit physicians ' sellg drgs
at reta or supplementing their incomes by dispensing drgs. But the language of this regula-
tion is so imprecise that enforcement has not been possible. One of these States reently
eliminated this tye of restrction because of the dificulty of interpretation.

Finaly, enforcement efforts in some States may have been hampere because the regulation
governing dispensing by physicians and all responsibilty for enforcement ar not entiely
within the puriew of the medical boards. In fact, we encountere only a very few States in
which the medical boards have, within the body of law they admster, all the reguation
governing dispensing by physicians, and, at the same tie, have responsibility for all aspects
of enforcement.

The States ' regulatory requirements for physician dispensing are often not par of the body of
law admnistered by the medical boards although they have the legal responsibility for tang
disciplinar action against the licenses of physicians. In fact, very few States have al the
regulatory requirements for dispensing by physicians entily within medcal law. In nearly
half the States , the reuirements governing physician dispensing are based solely in pharacy
law, and in the others , they are contained in varous combinations of statutes and other regula-
tion , for example, medical and pharacy practice acts , opinions of States ' attomeys general, .
or consumer protection laws.

Moreover, although the medical boards in virualy all States reportedly have responsibilty to
enforce requirments though disciplinar actions, in only about a dozen States are they also
responsible for al other aspects of enforcement such as investigating complaits, inspecting
physicians ' offces, and educating physicians about State requirments. In most States, these
enforcement responsibilties are shar among medical boards, pharacy boards, other State
agencies (e. g., offices of attorney general , the deparents of health or consumer protetion),
and/or, occasionally, components of a larger umbrella regulatory agency.

We found that this diffusion of authority and responsibility sometimes resulted in contradic-
tory regulation and confusion over agency roles or even over the requirements themselves. In€
one State, for example, the pharacy practice act prohibits physicians from dispensing drgs
except in emergencies , whereas the medical practice act allows them to dispense without this
restrction: In another State, the medical board told us that responsibilty for disciplining
physicians rests with the pharacy board because the dispensing requirments are contained
in pharacy law. The pharacy board, on the other hand, maitained not only that it has no
authority to discipline physicians but that the provisions of the pharacy practice act do not
apply to dispensing by physicians. We found too that in nearly half the States , the regulatory
                                            ..,




board/agency offcials with whom we spoke disagree with one another or with the regulation
itself regardig their States ' requirments. In many instaces, respondents had to refer to
other sta members or to other agencies to leam what requirments were in place.

Considerable Support Exists Among State Regulatry                Offcias For Further Regulation Of-
Dispensing By Physicians.

      Two-thirds of all respondents thought it is very important for physician dispensing. to be
      regulated in their States.

Two- thirds of all respondents, frm States with and without regulation , thought regulation of
physician dispensing is very importt for their States; only 10 percent thought it minimaly or
not important (see figu VI. Pharcy boars attached much greater importce to regula­
tion than did medcal boards. Over 80 percent of the respondents from pharacy boards con­
sidered regulation as very importt for their State compar with 40 percent of medical board
respondents. Neverteless , nearly thee- fours of the medcal boar respondents thought
was either very or moderately importt for their States to regulate the practice.

We found a dict correlation between the importance attached to regulation by respondents
and the restrctiveness of their States ' regulation. Whereas nearly all the respondents from the
seven most restrctive States considere regulation very important, only half of those from
States with no regulation thought so.

                                                     FIGURE VI



                            IMPORTANCE OF STATE REGULATION OF
                           PHYSICIAN DISPENSING, AS PERCEIVED BY
                                STATE REGULATORY OFFICIALS




                                                                      Don t know 7%
                                                                    Nollmponent 3%
                                                                 Minimally important 7%

                                      Moderately imponam 17$
                    1a, 811te rlgulatory
                               ora
                    rlDorbtd to Ihl
                                         oWellll,
                                       , 1888.
                    Ii: H ID7r..pondllll.
 In general , respondents thought that regulation of dispensing by physicians is necessar
 priary to protect the health of the public. Other major reasons included the nee for ensur-
 ing accountability and for strngthening contrls in the nation s drg distrbution system in
 order to reuce the possibilties for diversion. This position is supported by the number of
. regulatory board/agency offcials reportg increases inthe. number. of complaints on .
 physician dispensing.


      Nearly two- thirds of regulatory board/agency officials contacted reported complaits on
      physician dispensing   durg the last 2- 3 years. Complaints were reported by at least one
      board/agency official from thee- fours of al States, includig those with and without
      regulation.€

Nearly two- thirdsof all the regulatory board/agency offcials with whom we spoke reported€
having received complaits during the last 2 or 3 years. These offcials represente over half€
the medcal boards , nearly two-thirds of the pharacy boards, and more than th-fours of

the separte enforcement agencies. Overal , complaits were report by at least one€
board/agency official from th- fours of all States , including those with and without regula-
tion. Moreover, nearly 30 percent of these offcials thought the number of complaits was in-
creasing durg this time. The most fruent complaints concerned improper labeling and
packaging of drgs as well as what these offcials described as varous kids of inappropriate
dispensing, such as overprescribing, unnecessar prescribing, and dispensing outdated or inap-
propriate drgs.   Offcials also reported having received , to a lesser extent , complaits about€
physicians overcharging for drgs, improperly supervising the dispensing process , and makng
patients feel they could not buy their prescrptions elsewhere.


      needed. €
      Many respondents from States with regulation thought stronger requirments     were




About half the officials with whom we spoke from States with regulation favored changes to€
clarfy and strngthen further their States ' regulatory control over physician dispensing. This
view was shared by nearly equal proportons of respondents from medcal boards and phar-
macy boards. Support for change was strongest among respondents from those States with€
moderately or minimally restrctive regulation. Respondents frm these States most favore€
regulatory changes to require registrtion of dispensing physicians, to impose more proedural€
requirements, and to clary regulatory language. Overal , only a very few respondents con-
sidered any of their States ' requirements too restrctive, and no one suggeste elimnatig
regulation completely.

In contrst, about a third of the respondents from States with regulation thought no regulatory
changes were needed in their States. Some indicated that dispensing by physicians did not
pose a problem , and others thought their regulation was adequate. A few respondents thought€
their States had not had sufficient experience with recent regulatory changes to consider any€
further action soon.€
      Nearly half of all respondents thought Federal action addressing the practice of
      physician dispensing was not necessar; a third favored it, and nearly 10 percent
      thought it might be needed.

Nearly half the State offcials with whom we spoke did not favor any' Federal-action related to
physician dispensing. Opposition to Federa action was expressed by more medcal boar off-
cials than pharacy board officials (by a magin of more than two to one). A largerpropor­
tion of respondents from the seven most restrctive States were opposed to Federal action than
those from less restrctive States. . A few respondents thought Federal action was unnecessar
because physician dispensing was not a problem in their States. A few others felt that Federa
regulation would be diffcult to implement or enforce. Most of the respondents, however,
were opposed simply because they considere regulation of the practice to be more ap­
propriate for the States than the Federa Governent. And, indee , nearly a thir of the
respondents, including at least one offcial from hal the States, expected additional regulation
to be proposed or implemented in their States within the next year or so. These States include
those nine States where changes are curently pendig, as well as 18 other States.

On the other hand , over a third of the regulatory board/agency offcials thought Federal action
was needed. And another 10 percent favored some role for the Federal Government if efforts
                                                               Support for Federal ac­
by the States to address the practice should prove to be insuffcient.
tion was strongest among pharacy board offcials and among respondents from those States
with moderately or minimally restrctive regulation.

Most proponents of Federal action thought the Federal Government should establish stadards
governing the practice of dispensing by physicians. They supported federally imposed stad­
ards in order to ensure uniform reuirments among the States and to provide stronger con­
trols over the drug distrbution system nationwide. About a third of those in favor of Federa
action , primarly pharacy board offcials , thought the Federal Government should prohibit
the practice altogether. A few respondents, al from medcal boards , wanted the Federal
Government to study furer varous issues related to the practice of physician dispensing.

When asked specificaly about the pending Federal legislation to prohibit practitioners from
dispensing for profit , nearly two- thirds of all respondents were famliar with the proposed
legislation , but less than half of these favored Federal prohibition. Slightly less than 25 per-
cent of all regulatory board/agency offcials with whom we spoke were both famliar with the
bil and in favor of it.

More pharacy board offcials were famliar with the legislation than were medical board off­
cials by a margin of nearly two to one. And of all respondents both famliar with and in favor
of the legislation , 85 percent were from pharacy boards. We found no corrlation between
respondents ' opinions about this legislation and the restrctiveness of their States ' regulation.
                                     RECOMMENDATIONS€

Based on the situation described in the previous pages, we offer the following reommenda-
tions with respect to regulation of physicians who dispense drgs to patients beyond the
provision of samples. We addrss these reommendations to State governments and to the na.
tional associations of the boards of medcine and pharcy.

THE STATE GOVERNMENTS€

In our view, the public s health and welfar as well as the integrty of the distrbution system€
for prescrption drgs ar crcial considerations in governent regulation of physician drg
dispensing. The focus of our inquir did not include an in- depth analysis of either the in-
cidence or consequences of physician dispensing. However, in examing State regulatory ap­
proaches to the practice, we believe we acquir suffcient understading of the concerns

about public health and accountabilty associated with physician dispensing to support the fol-€
lowing recommendaons:

      State govemments should tae initiatives to promote stronger , more effective regulation
      of physician dispensing.

We believe that the States should continue to exercise primar responsibility for regulating the
terms and conditions under which physicians may dispense prescription drgs. State govern-
ments are more attuned to local situations than the Federa Government. States have tradition-
ally regulated the practices of both medicine and pharacy, and thus States have both
considerable experience upon which to base further regulation and admiistrative strctures
for enforcement aleady in place. As we have seen , not only have a large majority of States al-
ready imposed some requirements on the practice, but there has been considerable activity to
strengthen regulation of physician dispensing in recent years. More seems liely to occur in
the near futur.


Effective regulation of drg dispensing is important to protect the health and welfar of the
public and to ensure accountability and adequate controls in the drg distrbution system.
State governments have recogniz the importance of these concerns as they have extensively€
regulated the dispensing of prescription drgs by pharcists. For these reasons, most States€
have also mandated at least some requirements for dispensing by physicians.€

Neverteless, as we have seen , the regulatory requirements imposed by the States on dispens-€
ing physicians var   widely acrossthe countr, and the large majority of States either have min-
imal regulation governing the practice or have no regulation at all. Furer, may State
regulatory boards/agencies reported having received complaits about the practice and having
taken disciplinar action of varous kinds against physicians for abuses. associated with dis­

pensing. These complaints and disciplinar actions have been related primarly to public€
health and safety issues. Although the incidence of physician dispensing is relatively low in€
most States, it appear to be increasing in many States. The practice seems liely   to increase
furer in view  of both the economic pressurs facing many physicians and the possibility that
physicians wil parcipate in the new Medcare outpatient prescrption drg program.

Based on what we have leamed about the States ' curnt regulatory approaches, the reguation
governing dispensing by physicians in most States is signficantly less extensive than the.
regulation governg dispensing by pharcists. This discrepancy suggests vulnerabilities for
both the public s health and for accountabilty in the drg distrbution system.

Should States choose not to prohibit physicians from routiely dispensing drgs , it seems
reasonable that they at least adopt requirements sufficient to ensur more adequate protection
for the public and heightened accountability for drg distrbution. We think the States, at the
very least , should adopt a basic theshold of regulatory requirments to govern dispensing by
physicians. We suggest this thrshold of regulation consist , at a miimum , of the foIlowing re-
quirments:

           The procedural reuiments (Type V regulation) such as labeling, record- keeping,
           storage , securty, and supervision of the dispenser should be as applicable to dis-
           pensing physicians as they are to pharacists.

           A requirement for registrtion of dispensing physicians with a designate State
           agency (Type n regulation) is needed so the States can identify those physicians
           who are actually dispensing for puroses of inspection and monitoring.

           Requirements to protect freedom of choice (Type IV regulation) for patients.

The procedural and registration reuirements we propose as components of this theshold
were frquently identied by the State regulatory boards/agencies with whom we spoke as cru-
cial to effective regulation of the practice. And requirements promoting freeom of choice
would help to address concerns that the public be able to decide freely whether to obtain
prescriptions from their physician or from their pharacist.

      State governments should take steps to strengthen their enforcement of regulation
      governing physician dispensing.

Appropriate regulatory controls governing the practice of physician dispensing is only one
component of effective regulation. Equally crucial to effective regulation is adequate enforce-
ment of the legal requirments. As we have seen , State regulatory boards/agencies face a num-
ber of constraits as they seek to enforce requirements governing physicians who are
dispensing. These efforts could be strngthened by State governments though such actions as
the following:

          providing more resources to State agencies for enforcement, possibly though fees€
          associated with a registration reuirement for physicians who dispense;€
          clarfying ambiguous regulatory language, as appropriate;€
          delineating clearly the authority and responsibilties of those State agencies involved€
          in enforcement ofregulatory requirments;€

          improving the abilty of State agencies to inspet routinely the offces of dispensing

          physicians thugh such measures as assurng adeuate legal authority for.€
          inspections and mandatig registration of dispensing physicians; and             .J"€




          ensurng that dispensing physicians are knowledgeable about the regulatory€
          requirments governing the practice in their States.€

THE NATIONAL ASSOCIATIONS€

The Federation of State Medical Boards (FSMB) and the National Association of Boards of€
Pharacy (N ABP) have an opportnity to provide further leadership to the States in the ara€
of physician drg dispensing. We therefore dict the following recommendation to these as-€
sociations:€

      The FSMB and the NABP should work together in helping States to promote stronger€
      more effective regulation governing physician dispensing.€

Physician dispensing is a controversial practice which affects both the professions of medcine€
and pharacy. It seems liely that many State boards of medcine and pharacy wil be€
under increasing pressur to address safety and accountability concerns associated with the€
practice in the years ahead. The FSMB and the NABP could provide furer leadership to€
State boards by working together to consider respective authorities and responsibilties for€
regulation in this area. The associations could also provide valuable assistance to States by€
developing and incorporating into their respective model practice acts guidelines which €
consistent and acceptable to both professions. In so doing, the associations could work out€
together the specifics of the regulatory threshold described above for consideration by the€
States as they seek to strengthen regulatory controls over the practice.€
               COMMENTS ON THE DRAFT AND OIG RESPONSE

 With the Deparent of Health and Human Services, we reeived comments on the draft
                                     Secreta for Plannig and Evaluation (ASPE), the
 report from the Offce of the Assistat
 Health Care Financing Admnistrtion (HCFA), 'and the Public Health Servce (PHS). We also
 received comments from the Drg Enforcement Admnistrtion (DEA) and the Federal Trade
 Commssion (FC). In addition , we received" comments from a number of organzations out-
 side the Federal Government: the American Medcal Association (AM), the Competitive
 Health Care Coaltion (CHCC) representig severa drg repackaging companes, the National
 Association of Chai Drg Stores (NACDS), the American Phanaceutical Association
 (APhA), the Federation of State Medcal Boards (FSMB), and the National Association of
 Boards ofPhanacy (NABP).

 The comments of these government agencies and national organizations are contained below
 and are followed, in each instace, by the OIG response. We have chosen to include these
 comments in their entiety (except for attachments and references thereto) because we believe
 they offer importt perspectives on physician drg dispensing and contrbute helpful clarfy-
 ing information. After considering all these comments, we offer severa overal observations
 in response to issues raised by severa agencies and organzations.

 A few organizations challenged the valdity of some findings and reommendations based on
 criticism of the limited scope of our inquir and the methodology we used. With respect to
 the scope of our study, we acknowledge in the report that physician drg dispensing involves
 complicated, controversial issues of ethics, economics, public health, and regulation. We
 deliberately chose to focus our attention primarly on the issue of regulation of the practice by
 the States. We believe that furter understanding of the extent and nature of    regulation amonK
 the States and of the impact and effectiveness of their regulatory approaches would be useful
 to both Federal and State policymakers. Thus, in so doing, we did not examne other dimen-
 sions of the practice , such as conflict of interest concerns, cost implications, and issues of com-
 petition which nonetheless seem to us to be importt considerations and legitiate issues for
 further study.



 With respect to our methodology, some agencies and organizations criticize the report for
 being subjective and biased, for relying too heavily on perceptual information from interviews
 and not heavily enough on objective documentation. We believe our methodology was valid
 and the conclusions and reommendations of the report ar sound and crble. In order to un­
 derstand State regulation of this practice , we chose to survey every State, not a sample of
 States, and in so doing, include representatives of both medcine and phanacy and, in some
 cases , separte drg enforcement agencies. We chose to surey, in parcular, executive dic-
 tors of the State boards of medcine and phanacy which are charged with enforcing States
 laws goveming the practices of medcine and phanacy. These          diectors ar close to the State
 regulatory scene and are ,
                         in our view , in a very goo position to identify the States ' regulatory
. requirements and to comment on their States ' enforcement efforts.
We do not deny that bias can afect the judgments of respondents, whether from medcal€
boards or pharacy boards. However, our major findig outlning the disparty in regulation€
of dispensing by pharcists and by physicians is not a matter of perception but a situation€
documented in State law and regulation. Our major reommendation urgig stronger, more ef-€
fective State regulation to reuce this disparty hinges on ths basic fact.€

Moreover, the recommendation for stronger regulation is furer support by the inormtion€
on the extent and nature of complaits and disciplinar actions handled by these boards which€
was reported to us by board offcials. We acknowledge that we did not perform a State- by-€
State review of board reords in order to document complaits and disciplinar actions, but€
we did rely on data reported to us by State offcials we consider to be knowledgeable and reli-€
able. Many of these boards did provide us with numbers of complaints and disciplinar ac-€
tions relate to dispensing by physicians which we summarze in the report. We acknowledge€
we did not leam of dramatic horrr stories attbutable to dispensing by physicians. However,€
the natue of complaints and disciplinar actions reported by the boards suggest to us abuses€
of the practice such as improper labeling and inappropriate dispensing which are not insig-€
nificant for the health and safety of the public. That State boards report as many complaits€
and disciplinar actions related to physician dispensing as they did seems to us to be sig-€
nificant given the minimal degree of regulation in many States, the other priorities competig€
for the attention of State boards, and the fact that many aspects of safe dispensing, such as€
Tecord- keeping, proper storage, and security, ar not readiy apparnt to patients and are infre-€
quently, if eveT , the object of inspections in most States.€


Overal , no one disagreed with our conclusion that State regulation governing dispensing of€
prescription drgs is , for most States, much less extensive for physicians than for pharacists€
and that efforts to enforce requirments have been hampered by a varety of constrnts.€
Similarly, although some disagreed with our overall recommendation for stronger regulation€
no one took issue with our call for a specific thrshold of regulatory requirments for€
physicians who are dispensing prescription drgs.€
                                        APPENDIX I

     DETAILED COMMENTS ON THE DRAFT REPORT AND OIG RESPONSES

ASSISTANT SECRETARY FOR PLANNING AND EVALUATION COMMENTS

Than you for sending me your drt     report    on physician dispensing for comment. It's a goo
status report on the extent of state regulatory activity in this ara. I agr with your basic
recommendations , namely, that regulation of physician dispensing should remai the respon-
sibilty of states and that stronger regulatory oversight of ,the practice of physician dispensing
is neeed in many states and should be encourged by HHS. I would add, however, that the
extent of physician dispensing of prescription drgs bears continued watchig so that we ar
prepar to assess any problems or political pressurs that develop with the growth of this
practice.

OIG RESPONSE TO ASPE COMMENTS

We agree with ASPE' s comments and parcularly endorse the nee for the Deparent to
monitor the growth of this practice , to remain alert to State regulatory activities, and to reas-
sess the implications of the practice for its varous health progrs in the not too distat futue.

HEALTH CARE FINANCING ADMINISTRATION COMMENTS

We have reviewed the subject report and concur with the OIG' s recommendations regardig
the regulation of physicians who dispense drgs to patients beyond the provisions of samples.
We especialy agre that States should continue to exercise primar responsibility (as they do
with pharcies) for regulating the terms and conditions under which physicians may'dis-
pense prescription drgs.

It is clear from the report that States have attempted , with only minimal impact , to issue
regulatory requirements on dispensing physicians. States nee to establish more effective
regulation of these physicians which conforms more closely with State requirements that
govern pharacies.€


The OIG report indicates that in many States physicians are permtted to dispense drgs
without being licensed. It should be noted that with respect to the expanded coverage of out-
patient drgs under the Medicar Catastrophic Coverage Act of 1988, a provider must be
authorize by State law to dispense covered drgs in order to receive payment on an assign-
ment- clais basis. Since physicians wil have to be authorized by the State to dispense drgs
in order to receive payment for the drgs on an assignment basis, this may give an impetus to
more State regulation of physicians who dispense drgs.

Thank you for the opportunity to comment on this report.
OIG RESPONSE TO HCFA COMMENTS€

We agr with the thst ofHCFA' s comments. However, we wish to comment on HCFA's€
point that physician parcipation in the new Medcare outpatient prescrption drg program' €
may encourage more State regulation of dispensing by.physicians. -Whether or not this proves,.€
to be tre in the long run , in the immedate futu, providers ar eligible for parcipation as .€
long as they agree with cert      stipulations of the Act and are authorize by State law . todis.-€
pense covere drgs. The implications of this situation are, it seems to us, that physicians€
from most States ar eligible to parcipate in this program as they are authorize to dispense€
prescription drgs under the terms of their medcal licensure. However, these physicians will€
as we have seen, be dispensing prescrption drgs with far less regulation and control than ex-€
ists for pharcists.€

PUBLIC HEALTH SERVICES COMMENTS€

We agr with the report s statement that " . . . States should continue to exercise primar€
responsibility for regulatig the terms and conditions under which physicians may dispense€
prescription drgs. " We agree in par that State medcal boars and pharacy boards nee to€
provide greater leadership to States and to their constituencies in the ara of physician drg€
dispensing.€

The report does not contain any objective evidence of the presence or absence of a major€
public health problem with physician drg dispensing. We believe ths is due to the report€
reliance on perceptual information obtained primary from intervews. We recommend that€
objective data be used to support the report s recommendations for strnger State regulation€
and enforcement with respect to physician drg dispensing.€

We believe it may be useful to provide some clarfication of FDA's policy on physician drg€
dispensing. Although 503(b) of the Federal Food, Drug, and Cosmetic Act is applicable to€
physicians, we have long considered physicians who dispense drgs to patients puruant to a€
bona fide doctor-patient relationship to be exempt from strct compliance with the labeling re-€
quirments for prescription drgs under Section 503(b )(2).€

We believe that physicians who dispense drgs to patients pursuant to a bona fide doctor-€
patient relationship are engaged in the practice of medcine which is under the jurisdiction of€
the individual States. Consequently, FDA has not initiated any action to discipline physicians€
for failur to comply with the labeling requirements of Section 503 of the Act when involved€
in the bona fide prescribing and dispensing of prescription drgs. In this regard, we are not€
aware of any specific complaints received by FDA advising that the labeling practices of dis-€
pensing physicians have resulted in a public health or safety problem reuirng Federal inter-€
vention.€

If such complaints were received, FDA would refer these to State drg offcials for ap-€
propriate action. Should a situation arse where a dispensing physician s labeling practices€
result in a safety or health problem not amenable to State remedial action , FDA would con-€
sider appropriate steps to corrct any violation.€
OIG RESPONSE TO PHS COMMENTS€

The PHS crticizes the report for relying on perceptual information from intervews. As we
noted earlier, the disparty we point out in most States ' reuirements for dispensing by
physicians and pharcists is not a mattr of perception but is based in State law andregulao,
tion. We did rely heavily on inormation supplied by the State boards of medcine and phar-
macy who ar, we believe , the State agencies most knowledgeable about ths subject and who
are , at the same time, among the major State agencies upon which the FDA relies for im-
plementation and enforcement of varous drg related legislation.


We ar pleased that the PHS included in its comments clarcation of the labeling reuie-
ments for prescription drgs contaned in the Federa Foo , Drg, and Cosmetic Act
(FCA), Section 502, and the applicabilty to physicians of the exemptions from these re-
quirments described in Section 503(b) of the Act. We were alerted durig our study to ques-
tions raised by pharacy offcials about the applicability of the FFCA labeling reuirments
to drgs dispensed by physicians, and we sought to clarfy curent FDA policy from several
agency staf.

Section 503(b)(2) requires that:

      Any drg dispensed by filing or refIling a wrtten or ora prescrption of a practitioner
      licensed by law to admnister such drg shall be exempt from the requirments of sec-
      tion 502 , except paragrphs (a), (i)(2) and (3), (k), and (I), and the packagig reuire-
      ments of paragraphs (g), (h), and (p), if the drg bears a label contaiing the name and
      addrss of the dispenser, the serial number and date of the prescription or of its filling,
      the name of the prescriber, and, if state in the prescription , the name of the patient, and
      the dictions for use and cautionar statements , if any, contaied in such prescription.
      This exemption shall not apply to any drg dispensed in the course of the conduct of a
      business of dispensing drgs pursuant to diagnosis by mai , as to a drg dispensed
      violation of paragrph (1) of this subsection.

As stated in the PHS comments above, the agency maintains that this Section of the Act is ap-
plicable to prescription drgs dispensed by pharacists and physicians. Yet , at the same time,
agency policy exempts physicians , but not pharacists, from " strct " compliance with these
labeling requirements. In its view , the FDA considers dispensing of prescription drgs by
physicians par of the practice of medcine and therefore under the regulatory jurisdiction of
the States rather than the Federal Govemment.

In our view, this interpretation reinforces at the Federal level the inequitable disparty that ex-€
ists at the State level in the regulation of dispensing by physicians and by pharcists.
Furer, it seems to us inconsistent to suggest that these Federa requirments do not apply to
drgs when dispensed by physicians but do apply to drgs when dispensed by          pharacists.
Regulation of the practice of pharacy has, no less than the practice of medicine, fallen
priary under the jurisdiction of the States. This interpretation suggests a double standard
which raises our concem , parcularly as State board officials identied improper labeling of
drgs dispensed by physicians as a major reason both for complaints to boars and for the dis-
ciplinar actions they have taken.


DRUG ENFORCEMENT ADMINISTRATION COMMENTS

Than you for providing a copy of the drt report " Physician Drg Dispensing: An Overvew
of State Regulation " and for soliciting the Drg Enforcement Admnistration s (DEA) com-
ments on the report.

Firt, I should point out that this agency s concem in this mattr is regardig contrlled sub-
staces, whie the report is addrssing physician dispensing of al prescrption drgs. Any
practitioner dispensing controlled substances must comply with the Federa reguations con-
taned in 21 CFR Par BOO-End, whether or not additional state regulations for this activity
exist. These Federal regulations include record-keeping and inventory reuirments.

Although over the years there have been instaces of physicians prosecuted for dispensing
large quantities of controlled substaces for illicit profit (especially amphetaes), DEA has
no information that this is any more prevalent than doctors who divert by prescrbing, or that
diversion by dispensing is increasing. On the contr,   Schedule II dispensing doctors are
more readily identified though DEA's ARCOS reportng system than       ar those wrting
prescriptions.

However, based upon our experiences and monitoring of the states ' action (or inaction) and ef­
fectiveness in monitoring such practices, it appears to DEA that the findigs in your report and
the recommendations are sound.

I would lie to add that I found this report thorough and informtive. Than you once      agai
for the opportunity to comment on this matter affecting DEA's aras of responsibilty.

OIG RESPONSE TO DEA COMMENTS

We ar pleased with DEA's positive response to our findings and recommendations. As noted
in the report the Federal requirements implemented and enforced by the DEA with respect to€
controlled substances are applicable to all dispensing, whether by pharacists or by€
physicians.€

FEDERAL TRADE COMMISSION COMMENTS€

We ar pleased to respond to your reuest for our views on the Offce of Inspector General'
Draft Report entitled " Physician Drug Dispensing: An Overview of State Regulation
("Report ! The Report recommends that states enact more strgent regulation of physician
dispensing of prescription drgs by (1) imposing procedural requirements for supervision
labeling, record- keeping, storage and security; (2) requirng dispensing physicians to be
registered for puroses of inspection and monitoring; and (3) imposing reuirments to protect
consumers ' fredom of choice in determning where to purchase their prescription drgs. The
. ..   . --




              Report also reommends varous actions that states should tae, including the provision of ad-€
              ditional resources, to promote effective enforcement of regulations concerng physician dis-€
              pensing.€

               Because the Report s recommendations do not call for the adoption of regulations that would.€
               interfere with the abilty of consumers to obta prescription drgs frm their physicians, we -€
              . do not oppose them. 'We note , however thafwe canot comment definitively nproposals'a&'€
               broad and genera as those in the Report, and therefore confie our comments to the major.
              issue rased by the Report--to   what extent physician dispensing of prescrption drgs should
              be regulated.


              The Bureau of Competition staf does not endorse physician dispensing as preferable to phar-
              macist dispensing, or vice versa. Rather, we support consumer choice among qualed
              providers of prescription drgs.   At this tie, we are not awar of any justication that sup-
              port a total ban on physician dispensing of   prescription drgs. Physician dispensing in-
              creases consumers ' options in the purchasing of prescription drgs, and we believe it may
              increase competition among physicians and between physicians and pharacists, and possibly
              lead to lower prices and better services. We believe, therefore, that consumers should not be
              deprived of the potential benefits of physician dispensing unless there is reason to believe that€
              such dispensing has hared or is liely to har public health and safety and that less resnic-€
              tive health and safety standars ar insuffcient to protect the public.€

              It is important to clarfy the representations made in the Report concerning our views on
              physician dispensing. The Report states, at pages 1 and 6 , that the Federal Trade Commssion
              staf " have sought to discourage " state regulation of physician dispensing on the grounds that
              physician dispensing enhances competition and that attempts by state governments to regulate
              the practice " might constitute restrait of trade. " This is generaly but not entiely accurate.
              We have opposed only unreasonable resnictions on the abilty of physicians to dispense drgs.
              Moreover, a statute enacted by a state legislatur would generay not be subject to the an-
              titrst laws and therefore would not itself constitute an unlawful restraint of trade. Nonethe-
              less, when requested we have submitted comments in opposition to the adoption of what we
              view as unreasonable resnictions on the ability of physicians to dispense drgs by both state
              regulatory agencies and state legislaturs. For example, we have submitted comments to
              regulatory boards in Georgia2 and Marland 3 and to a legislative commttee in Califomia€
              concerning physician dispensing... In those comments, we opposed the adoption of rules or
              statutes that we believed would unreasonably resnict physician dispensing without providing
              any countervailing public benefits. It is our belief that resnictions of this natue are liely   to
              be harul to consumers. We have not, however, opposed effort to insure that both
              physicians and pharacists adhere to Tegulations that may promote public welfar.


              For example, we recently submitted comments to the Georgia State Board of Pharcy sup-
              portng the adoption of rules that would require dispensin physicianuo meet-health and
              safety standards simlar to those imposed on pharacists. In these comments, we stated that
              the adoption of the proposed rules would not interfere with the ability of physicians to dis-
              pense prescription drgs effciently, and thus would not deprive consumers of the benefits of
              choice among qualified providers of prescription drgs. We therefore suggest that your offce
could more accurately state the position of the FTC sta by deleting the second and thd sen-
tences of the paragraph bridgig pages 1 and 2 of the Report and substituting the following:€
 Sta from the Federal Trade Commssion         (FC)  have sought to discourge the states from
prohibiting or unreasonably restrctig physician dispensing of drgs. The sta has suggested
that dispensing by physicians enhances competition in th prescription drg market and may"
lead to lower prices and better services. " Simlarly, on page 6, the words " prohibitig or un-
reasonably restrctig " should be substituted for " regulatig.


The Report s recommendations do not cal for regulations that would interfere with the ability
of physicians to dispense prescription drgs , and ar therefore consistent with our position. At
the same tie ,     however, the Report s regulatory proposals, which appear acceptable in a
generalze form , may have anti-competitive effects when incorporated into a specifc regula­
tion or statute or when added to an existig regulatory scheme. For example, whie reord-
keeping and securty requirments may be desirable in principle, the specifc language of a
regulation or statute proposed by a state may be so unduly burensome or restrctive that it un­
reasonably restrcts the ability of physicians to dispense drgs and therefore suppresses com-
petition. Similarly, a state may adopt the recommendation that physicians who dispense be
registered and yet may also impose a myrad of other reuirements that effectively deny or sig­
nificantly delay the approval of applications for such registrtion. While the recommenda-
tions offered in the Report appear to call for no more restrctive a scheme of regulation than
that which is currently in place for pharacists, we do not know how each of the states would
implement these recommendations. For ths reason, we cannot endorse the Report and would
prefer to comment on specific rules or statutes as they ar proposed by the states.

In sum, the dispensing of prescription drgs by physicians increases consumers ' abilty to
choose among qualified providers of pharaceutical services. The resulting competition
among physicians and between physicians and pharacists may produce lower prices and im-
proved services. The recommendations presented in the Report appear to call for regulatory
action that would not unreasonably interfere with a physician s abilty to provide dispensing
services. We do not oppose the concepts embodied in these recommendations, but we cannot
comment definitively until we have seen specific proposed regulations.

We appreciate this opportunity to review the Report and give you our comments on this impor-€
tant issue.€

    These comments ar the views of the staff of the Bureau of Competition of the Federal Trade Com­
    mission. They ar not necessay the views of the Commission or of any individua Commis-
    sioner.
    See  Letter from Jeffrey I. Zuckennan , Director, Bureau of Competition , to William G. Miler, Jr.,
    Joint Secreta, State Examining Boards (November 26, 1986).
    See  Letter from Jeffrey I. Zuckennan, Director, Bureau of Competition , to C. Earl Hil , M. D., Prsi- .
    dent, Maland State Board of Medcal Examinen; (December 31 1986).
    See  Letter from Jeffrey I. Zuckennan, Director, Bureau of Competition , to The Honorale Tim Les-
    lie, California Assembly (May I , 1987).
    See   Letter from Jeffrey I. Zuckennan , Director,   Buru of Competition ,   to William G. Miler, Jr.,
    Joint Secreta, State Examining Boards (June 26, 1987).
OIG RESPONSE TO FTC COMMENTS

We appreciate the FTC' s clarcation of its curent views on physician dispensing and have
revised the narative of the report accordingly.€


We, too, share the concern expressed by the FTC that dispensing of prescription drgs,
whether by pharacists or by physicians, be conducted in accordace with adequate health .
and safety stadards to protect the public. The thst of our recommendation is not to impose.
a regulatory framework which is more restrctive for dispensing by physicians than by phar­
macists. Rather, we recommend that for States which choose not to prohibit or otherwise
severely restrct dispensing by physicians a minimum theshold of regulatory requirements
should be adopted to achieve grater party and to protect the health and safety of the public.
However, it is important to note that even in adopting our suggested regulatory thshold, we
think certn vulnerabilties may remain with the practice in that physicians wil be dispensing
prescription drgs , albeit in accordance with strcter regulation, but without being reuied to
meet the educational and experiential requirements of licensure which States have chosen to
require of pharacists who dispense.

AMERICAN MEDICAL ASSOCIATION COMMENTS

The American Medcal Association has reviewed the drt report of the Offce of the Inspector
General entitled, " Physician Dispensing: An Overview of State Regulation. " The stated pur­
pose of this report was to determne " the extent and tye of state regulation " and to explore
 the effectiveness of state approaches " regulatig physician dispensing. The AMA support
physicians ' right to dispense drgs and devices when it is in the best interest of the patient and
consistent with our ethical guidelines...

The AMA concurs with the report in its view that the proper place for any regulation of
physician dispensing is at the state level. We strongly believe that the regulation of the prac-
tice of medicine, including physician dispensing practices , is the role of the states. As noted in
the draft report, states are more attuned to local situations than the Federal Government and
have traditionally regulated both the practice of medicine and the practice of pharacy.

The AMA, however, strongly disagrees with the conclusions drwn in the draft report. We
cannot support the report s recommendation that there is a need for " stronger, more effective
regulation of physician dispensing. " The report fails to document any abuses related to
physician dispensing, any examples where individual patients or the public health have been .
endangered, or any instances where current regulations have been ineffective.

The fmdings and recommendations presented in this draft report ar based heavily on a
telephone survey of representatives of state regulatory agencies, primarly the boards of
medcine and pharacy. In the absence of documented evidence to confmn the subjective im­
pressions of the respondents, it is virtually impossible to rule out bias in such a study. For ex-
ample, nearly 50% of the pharacy board respondents perceived their states ' enforcement of
regulation of physician dispensing as only minimally effective. In contrst, the majority of€
medical board respondents perceived their states ' enforcement of regulation of physician dis-
pensing as very or moderately effective; only 8% perceived enforcement as minialy effec-
tive. It appear that pharcy boar offcials may have a preferential interest in protectig the
pharacy profession and, therefore, there may be a bias against physician dispensing for
economic reasons. In the absence of confiatory data, the conclusion that pharcy boar
staffs are biased is just as vald a conclusion as the drt report s conclusion that there is inade-
quate enforcement of dispensing regulations.

We also question what is meant by " effective regulation. " It is notable that the states where
regulations ar viewed as " most effective " are those that viraly prohibit dispensing. We can-
not support stronger regulation of physician dispensing where the goal of the regulation
(state or otherwise) is to impede the legitimate practice of physician dispensing. The Federal
Trade Commssion has reognize that physician dispensing is a traditional par of medcal
practice and has urged states to miimize regulatory impedents to physician dispensing.
Without any empircal data as to the number and types of complaints occurng in the states, it
is prematu to recommend " stronger, more effective regulations.

In conclusion , the AMA supports the draft report in its recognition of the states as the proper
governental entities for regulation of physician dispensing practices. The AM , however
cannot support the cal for all states to pass stronger dispensing regulations. The report fails to
produce any data supportng a broad call for strnger regulation. The report s surey results
show that the concerns regarding physician dispensing are not uniform from state- to-state and,
in some instances, are not uniform within the states. The AMA believes that the nee for any
regulation of physician dispensing must be determined by each state separtely, based upon
the situation within the state.


OIG RESPONSE TO AMA COMMENTS

We ar pleased that the AMA agres with our view that primar responsibility for regulating
the dispensing of prescription drgs by physicians rests with the States.

We are concerned, however, with the thrust of the AMA comments on two counts. First, the
AMA suggests that the goal of our recommendation for stronger, more effective State regula-
tion is an effort on our par to " impede the legitimate practice of physician dispensing. " On
the contrar, the goal of regulation is to assur protection of the public s health and integrty of
the distrbution system for prescription drgs whether the dispensing is by pharacists or by
physicians. As this report makes clear, in the large majority of States, the regulatory require-
ments governing dispensing by physicians ar far less strngent    than those governing dispens-
ing by pharacists. The arguments justifying the nee for regulation of dispensing when
practiced by pharacists ar no less valid for dispensing by physicians.

Moreover, as stated earlier, we believe the in- depth telephone discussions with State
regulatory officials contrbuted valuable insights and peTspectives which ought not to be dis-
missed as bias. The information State offcials shared on regulatory requirements are detailed
                                                                                              :...




in State law and regulation. Information about the disciplinar actions are a matter of public
record in each State, and we have every reason to believe that these responsible State offcials
provided us with goo faith estiates of disciplinar actions and complaints.

As the AM noted , pharacy and medical boars have dierent perspectives with respectto--
some aspects of physician drg dispensing. However, parcularly signifcant, we believe, is
the perspective , shared by equal proportons of respondents from medcal and pharacy ce.
boards, that furer strngthening of their State s regulation of drg dispensing by physicians
is waranted.

COMPETITIVE HEALTH CARE COALITION COMMENTS€

In response to your letter of November 1, the following comments are submitted on behal
companies in the drg repackaging industr on the draft report entitled, "Physician Drg Dis­
pensing: An Overview of State Regulation. " While we have severa concerns regarding the€
draf , overall we share your view that any regulation of prescription drg dispensing is ap-€
propriately within the puriew of the states.€

As the draf report states , physician dispensing of prescription drgs rases issues as to
whether the practice promotes or restrns competition and whether consumers pay more or
less for drgs dispensed by physicians. Neverteless, the draf lacks any discussion of the ef-
fect of physician dispensing upon the market price of prescription drgs. We believe that
physician dispensing has brought new competition into the prescrption drg market, forcing€
others in the market to offer a better prouct, more convenient service and lower prices. Omis­
sion of discussion and analysis of these fundaental benefits to consumers is a serious
deficiency of the draft report.

We also believe the draft to be deficient in its methodology, faiing to meet the objective stad-€
ard necessar to give credibility to its findigs. Rather, the report accepts and trats public per-€
ceptions as a methodological premise. It cites no studies or statistics revealing actual€
documented abuse by physicians who dispense drgs. While those who oppose physician dis-€
pensing have claimed that the practice has resulted in higher prices, improper supervision , im-€
proper labeling and packaging, overprescribing, unnecessar prescribing, outdated dispensing
and lack of choice by patients , we ar awar of no actual documentation of these allegations.
Indeed, the drt report itself states (page 4) that none of the state officials contacted was
aware of any analyses or surveys of physician dispensing in any of the states. As your own
remarks at the October 6 National Institute on Clinical Laboratory Reimbursement and Policy
proceedigs recognized, public policy made in the absence of " goo solid data " fruently
results in very flawed policy decisions.

The draft report appear to be largely based upon telephone conversations eliciting opinions of
representatives of organizations, government agencies and state regulatory boars. These
opinions describe the industr in general terms, leading to a tenuous basis for the findigs of
the report. Examples include:
      References to " industr spokespersons " who are uncenain as to the amount ofrevenues
      involved in the practice of physician dispensing but who " predct drmatic growth in the
      industr " without identiying who these " industr spokespersons " ar , the interests they
      represent, nor the basis for their "predctions. "

      An overview of   estimates  of the incidence of physician dispensing without identiictin
      ofrelevant and statistically sound facts from which these estimates ar made. ..

      References to complaints received by state regulatory boards regardig physician

      dispensing without stating the number of complaints received , from whom these€
      complaints were received, nor the content of the complaints received. It would also be€
      useful to know how these complaints were resolved.€

      Continued references to state regulatory board offcials who  thought   the number of€
      complaints had been increasing. Again , the report s reliance on perceptions is€
      demeaning both to the legal and political significance of your effort.€

      References to disciplinar action taken by states against physicians without a
      comparson with actions taken against pharacists during the same period , leaving a
      negative impression concerning disciplinar problems with physicians who dispense
      drgs, when in fact the number of actions taken against physicians may be minial.

Reliance upon generalities and opinions as the basis for formulating conclusions jeopardizes€
the objectivity a report of this natue should possess. Many of those whose opinions were€
solicited were pharacists or their advocates. Many state regulatory boards having jursdic-
tion in this ara are largely composed of pharacists. Such persons may reasonably be ex­
pected to have a bias against physician drg dispensing. A report based upon biased opinions

cannot help but reflect such bias.€

We agree that any regulation of physician dispensing should remain within the states ' purview.
They are best positioned to make reasonable and infonned decisions as to whether and what
regulations are needed.

Yet , in makng recommendation to the states, the draft report is again deficient in that it ig-
nores an important distinction for states to consider when promulgating regulations. The
report should emphasize that states contemplating regulation of physician drg dispensing
must recognize the difference between dispensing repackaged drgs and dispensing drgs "
bulk. " Dispensers of drugs " in bulk" purchase drgs in large quantities; when a patient needs
the drg, the required quantity is taen from a large contaner and sold " as is. " Little attention
is given to such important quality and safety factors as proper packaging, labeling, and expira-
tion dates of the bulk drugs. In contrast , physicians who dispense prepackaged drgs sell only
drugs purchased from a prepackager licensed by the Food and Drug Admnistration which re-
quires the prepackager to adhere to strct federal manufacturing standards, Drg Enforcement
Admnistration regulations \which meet or exceed state-mandated pharacy regulations),         and
applicable state regulations. Moreover, dispensing of prepackaged drgs eliminates essential-
Iy all of the risks of handling associated with traditional dispensing by pharacists. These
critical distinctions substantialy reuce the need for state concern for many potential abuses
in the dispensing of prepackaged drgs€

Another deficiency of the report concerns statements of fact which we believe fail to reflect
the complete picture. Examples include:€

      The statement that revenues realzed by repackagers may increase from an estimated
      $25 millon last year to as much as $400 millon to $500 mion by 1990 and possibly
      as much as $2 billon within 5 to 7 years. These estiates seem dubious in light of the
      fact that the largest companies in the drg repackagig industr, ISP (Stat-Pak) and PPS
      are barely increasing sales. A minimum of a trpling of sales would be required by
      every company each year in order to realize the revenue increase estimates stated in the
      Report.

      A conclusion in the report stating that physician drg dispensing across the countr
      seems to be growing. Yet, the report does not note that much of the growth in physician
      dispensing is due to the conversion of bulk dispensers of drgs to the safer practice of
      dispensing of prepackaged drgs.

It would be helpful and important if the report would update the several changes in state laws
as follows:

      In llinois , wrtten prescriptions do not have to be provided to patients; rather , the
      patient must be advised of the choice of receiving a wrtten prescription.

      In California , patients are advised of their choice to fil prescriptions elsewhere.

      In Oklahoma and Washington , prescription charges or profits are not prohibited. The
      same prohibition has been overturned by the West Virginia Attorney General and is
      under review in Virginia.

      Appendix I should delete Nebraska and Oklahoma from the list of states with " very
      restrctive " regulations. The report states that in these states the " required board
      approval reportedly has been given very sparngly, " when , in fact , the required board
      approvals in these states is granted regularly.

      Appendix II should note that this year the Florida legislature removed its restrction
      requirng six hours annually of continuing medical education and replaced it with a
      simple registration requirement.

Finaly, the report only superfcially presents its " fmdings. " For example, the report estab.
lishes a major conclusion in the face of facts to the contrar. On page 17 a " fmding " of the
report highlights the fact that " many respondents from States with regulation thought stronger
requirements are needed, " despite the fact that the text of the report asserts that " a         thd of the
respondents from States with regulation thought          no   regulatory changes were neeed in their
States " while still others " thought their States had not had sufficient experience with reent
regulatory changes to consider any furter activities soon. " (Emphasis added. ) More con­
sideration should be given to these statements due to the signcant number of respondents
who advocate that either no regulations are neeed at al            or that no   .rguatons are    neein
the near futur.



Another example can be found on page 19. There the report recommends that " State govern­
ments . . . take initiatives to promote strnger, more effective regulation of physician dispens-
ing. " The report should include an appendix identiying states which have reently strck
down regulations for being too restrctive in order to remind states of the danger of over-
regulation.

We are pleased to have had the opportunity to submit the foregoing comments and trst that
you wil let us know if we can provide further information or assist you in any way in fmaliz­
ing the report.

      For example, page 9 of the report refers to the fact that state regulatory bod offcia are of the
      view tht states should implement regulations authoriing dispnsing only by the physicia them-
      selves. In the case of a physician who dispenses prepackaged drgs-as oppose to dinsers of
      drgs " in bul" there is little nee for such a regulation.

       In support of this proposition , the Annual Scherig Report IX prepar by Scherig Laratories in
       Kenilworth , New Jersey (1987), concludes that consumers get bener instrctions from physicians
       th from a typical drug store where the patient is likely to reive prescriptions from a cahier.


      The report shows that 92% of the patienlS sureyed were given detaled instrctions on dosage by    .

      their physician at the time they reeived a prescription. This compars to 43% who received in-€
       strctions from a phanacy.€
                                                                                          '.


OIG RESPONSE TO CHCC COMMENTS€

With respect to the CHCC' s comments on the scope of our report, we reiterate that the focus
of our inquir was primaly dicted at gaiing furer understadig of the States ' regulatory
approaches to drg dispensing by physicians. That an examnation of economic issues in-
volved in physician dispensing was beyond the scope of this inquir diishes neither..e.ig-
nicance of the economic issues nor of the regulatory issues which we did examne. .€

The CHCC believes our methodology was deficient and suggests the report contas insuff-
cient data to justify our recommendations for strnger, more effective regulation. As noted
earlier, we believe our approach was reasoned and creble given the purose and scope of the
inquir and that it balanced the perspectives of both medcine and pharcy. We acknow-
ledge we did not compare disciplinar actions taen by State boards agaist physicians with
those taen against pharcists. We question the signifcance of such a comparson given the
disparty in State regulation of the practice between the two professions and given that the dis-
pensing of prescription drgs is at the core of pharacy practice and closely monitored by
regulatory officials. For all the reasons detaled above, we believe our data on regulatory re-
quirements provides a solid basis for our policy recommendations.

The CHCC takes issue with our finding summarzing the views of regulatory board officials
with respect to the need for stronger regulation of the practice. We believe the interpretation
and emphasis we give to the supportng data is correct. As stated in the report , one-third of
the officials from States with regulation thought no further   changes were currently neeed, not
that " no regulations are needed at all or that no regulations are needed in the near futue.

The CHCC suggests we include an appendix to the report in which we identify those States
 which have recently strck down regulations for being too restrctive... " We would welcoJ1€
furer information in this regard. Our research for this study yielded no examples of States
having rescinded any requirements for dispensing by physicians once they had been imple-
mented. We have leamed of only one State , after our research had been completed, which
repealed an existing requirment but did so while adding other requirements to strngten the
State s overall control over the practice.

We appreciate the comments on the accuracy of curnt State requirements and of estiated
revenues of repackagers. We have modfied the data for some States; for others we made no
changes because we believe our descriptions ar correct. Our statement regarding revenues of
the repackaging industr ar based on published estimates from the sources we reference in ap-
pendix IV.

We accept the distinction made by the CHCC between dispensing drgs "in bulk" and dispens-
ing prepackaged drugs. The Coalition maintains that prepackaged drgs ar safer. We ac-
knowledge that repackaged drugs may have important differences from drgs in bulk.
However, that fact does not , in our view, obviate the need for stronger State regulatory control
of the tye we recommend. Regardless of whether drgs are dispensed " in bulk" or in smaller
quantities from repackaging companies , we think State governments need to be able to iden-
                                      , "€




tify dispensing physicians, to assur that patients have from of choice in filig prescrip­

tions, and to assure compliance with all the procedur requirments we suggest in order to€
protet the public and the integrty of the drg distrbution system.€


NATIONAL ASSOCIATION OF CHAIN DRUG STORES COMMENTS€

The National Association of Chai Drg Stores, Inc. (NACDS) appreiates the opportity-to,€
comment on the draft report entitled Physician Drug Dispensing: An Overview of State€
Regulation. " NACDS represents 173 chain drg corporations operatig in excess of 21

reta pharacies nationwide that dispense 40 percent of the nation s prescrption drg€
products. As a long-stadig integr component of the health car delivery system, we ap-€
plaud your initiative in this ara, as you have clearly recognize the serious implication for the€
safety and welfare of the American consumer.€

Based upon the conclusions reached in the report , it is apparent that the Inspector General€
believes that a conflct of interest exists when a physician both prescribes and dispenses€
prescription drgs. With increasing cost contanment pressures on physicians , the oversupply€
of physicians, and the resultant reduction in their annual incomes, it can be expected that ths€
practice wil only increase since the only incentive to dispense prescrption drgs is an oppor-€
tunity for supplementa income. Additionaly, recent passage of the Medcare Catastrophic€
Coverage Act , expandig the Federal Government s involvement with outpatient prescription€
drg programs, may furher this practice and its related abuses. Thus , physician dispensing€
has nothing to do with better health care, but is encouraged and drven by a grwing drg€
repackagig industr promising increased profits to physicians.€


While we agre with the conclusions of the report that there is a basic and compellng need for€
a closer scrutiny of physician dispensing, we recommend that the practice be prohibited al-€
together except for those situations in which a medcal emergency arses or the physician is€
fulfllng a patient   s imediate needs. Only by a strngent control on this practice can the€
public health be served.



It is well established that the pharacist is the primar source of information on prescription€
drgs not only for the consumer but also to the physician. The pharacist is the only member€
of the health care delivery system educated and licensed for this importt function.€

As is clearly shown by your study, physicians have not and wil not tolerate regulation of€
themselves. Absent any credible justification , NACDS encourages the Inspector General not€
to give credence to a system that does not serve or benefit the health nees of the consumer.€

In conclusion , NACDS appreciates this opportunity to comment on the draft report.€

OIG RESPONSE TO NACDS COMMENTS€

We are pleased with the positive response of the NACDS to our inquir. It is important to€
note , however, that in stating our conclusions we do not intend to suggest that physician drg€
dispensing represents a conflict of interest. On the contrar, the focus of our inquiry and the

resultat findings do not permt our takng a position on the question of whether physicians
should or should not dispense prescription drgs. Rather, the fmdings of our inquir support
our recommendations, namely, that should States choose to permt dispensing by physicians,
they should impose adequate regulatory controls over the practice to assur the protection
public health and the integrty of the drg distrbution system.

AMERICAN PHARMACEUTICAL ASSOCIATION CO. MMENTS                                                  t..€

We ar pleased to submit our comments on the draft report entitled "Physician Drg Dispens-€
ing: An Overvew of State Regulation. " APhA is the national professional society of phar-€
macists, representing the th    largest health profession , comprising more than 150,€
pharcy practitioners, pharaceutical scientists and pharacy students. Your office and staf€
are to be commended for their attention to a serious problem facing the American public. The€
representatives of the State agencies that you sureyed for this report ar very knowledgeable
about the laws you sought to review. Because our member pharacists are so dictly af-€
fected by these laws, we trust you wil give our comments the weight we believe they deserve.€

We have circulated the report among our leadership and sta, as well as all of the state phar-
macy association executives, in an effort to provide you with comments that are trly repre-
sentative of pharacists ' views. As you know, we worked closely with Dr. Yessian and Ms.
Kvaa to assist them whenever possible.

The fmdings of the inspection appear to be faily collected, accurate, and presente in a
balanced fashion. The profiling of state laws by elements is parcularly insightful. APhA's
own informal research and the findings of the Glassman Oliver Report... corroborate the find-
ings that the incidence of physician dispensing for profit is expandig, that attempts to regu-
late the practice ar increasing, and that attempts to enforce existing laws and regulations have.€
been largely ineffective due to budgeta and political diffculties. It is also tre that con-€
siderable support exists for furher regulation.€

Pror to discussing APhA' s specific recommendations concerning the inspection report we
want to make it clear that APhA policy opposes any form of nonpharacist dispensing. The
APhA policy on nonpharacist dispensing, adopted March 31, 1987, states:€

           The American Pharaceutical Association support the principle that all patients
           receiving prescription medications are entitled to comprehensive pharaceutical
           services. These services include , but ar not limted to , patient counseling, main-
           taining patient profIes , and providing the check and balance system with other
           health professionals to help prevent prescriber errors and adverse drg interactions.

           The American Pharaceutical Association opposes nonpharacist dispensing of
           prescription medications.
Discussion of the APhA House of Delegates recognized that emergency situations occur. Be-
cause of the exceptional natur of emergencies and the concern that formal recognition would
weaken the language and alow loopholes in legislation to become standad practice, the
APhA House of Delegates chose to omit that formal recognition.

APhA supports the recommendations contaed in the inspection report. However, our view"
that regulation of the practice is a necessar step should not imply that APhA views physic
dispensing as acceptable if regulated. Rather, our position is based upon the belief that ap-
propriate regulation of the dagerous practice of physician dispensing is better than no regula-
tion at all.

APhA believes that the Inspector Genera' s recommendations in the fmal report should:

            Support federal legislation. The Inspector General is encouraged to support federal
            legislation that would limt physician dispensing to emergency situations, e. g., Con­
            gressman Wyden s bil (H. R. 2168). In those situations , minimum federal stand-
            ards simlar to those governing pharacy practice should apply. This bil is likely
            to be reintroduced in the next Congrss.

Three signifcant factors requir swift and uniform federal action      to protect the welfare of the
American public. They include:

           Expanded activities of the profit - minded drug repackagers;

           The intrsion of the   FTC   in this traditional area of state authority; and

           The inability of states to effectively enforce laws and regulations concerng the .
           practice.

Many drg repackaging companies have encouraged physicians to sell prescription medica-
tion. A national repackaging association has predicted that fifty percent of all practicing
physicians could be dispensing within the next five years.

Three states were wared against regulating the practice by letters and public statements made
by Federal Trade Commssion Chairman Daniel Oliver and his staff. These wamings have in-
hibited other states from pursuing regulations. Chaian Oliver has taken the position that dis-
pensing physicians add to the pool of competitive outlets, thus makng the market more
competitive. APhA maintains that physician dispensing is anticompetitive. Patients ar un­
likely to question a physician when told to " stop at the desk on the way out and pick up your
prescription medication.

As the report explains, states have a most diffcult time enforcing their laws to limit physician
dispensing. Minimum federa laws and regulations would assist the States by sending a clear
message that this is a serious issue. Thus, we encourage you to support federal legislation in
your fmal report.
             , "
                                                '"
           Encourge federal agencies to assist in the enforcement of state laws. The Inspector
           General should urge the Deparent of Health and Huma Servces to insur that
           any prescriber authorized to parcipate in any state and/or federaly funded
           prescription drg progr meets minium stadas of pharcy practice.

It is most appropriate that federal agencies begin paying closer attention to the distrbution of­
drg products by physicians. The federa government has established        stada     for thepur
and safety of drg proucts and safeguars governg drg products with a potential for
abuse. While these regulations afect physicians, they are much more strgently       applied to
pharcists who are     the traditional caretaers of these drg   products and   for whom the laws
were designed. The states have traditionally determned who shall prescribe and who shall dis-
pense drg products. The laws and      regulations controllng the highly competitive pharcy
marketplace in the United States have evolved over the past 125 years and include a combina­
tion of federal and state laws. State boards of pharacy control the licensur of pharacists
and pharacies, but they have little or no authority over physicians who choose to dispense
medication.

           Investigate dispensing physicians ' conflict of interest. The Inspector General should
           consider an expanded study to investigate the conflict of interest that occur when
           a prescriber both chooses the patient s medcation and profits from the sale of that
           medication.

The Congress, in the recent passage of the Medicare Catastrophic Coverage Act , has recog­
nized a conflict of interest when physicians profit from referrals of home IV therapy patients.
Severe penalties are to be imposed upon violators of those provisions as a means of deterrng
such practices. The same condition occurs when a physician selects his own " pharacy " by
dispensing a drg product to a patient and profiting from that sale. Yet ths smaler, but equal,-
Iy significant , transaction goes unnoticed in the law.

Dispensing prescribers tyically have a limited inventory of drg products which reduces the
opportnity for effective drg product selection. If the prescriber cares only one brand of
multi-source product , patients wil no longer have the wide range of choices which makes our
health care system one of the best in the world.

Dr. Arold Reiman, editor of the New England Journal of Medicine        echoe our concerns
when he said (A physician) should not be a business man with an inventory of drgs on his
hands that he wants to sell you at a profit. The risk is that a parcular drg wil be used when
it may not be the best drg or when you may not nee a drg at al. " In another document , he
stated, " When doctors profit by sellng their patients drgs that they themselves have
prescribed, they are attempting to fill two basically incompatible roles-- those of fiduciar and
vendor. (Federal legislation) is necessar to protect the public from possible abuse resulting
from the confusion of these roles and to make clear that we want our doctors to act as protec­
tors of their patients ' interest and not as ordinar tradespeople.
            Include all prescribers in recommendations to contrl the practice. Whe the term
             physician dispensing " has become commonplace, the Inspector General is asked
            to urge Congrss and federal agencies to include al prescribers in reommenda-
            tions to control the practice of prescribers ' dispensing for profit.

Many federal and state laws allow varous groups of practitioners to prescribe and (either ­

dictly or by omission) dispense     drg products. These include, but may not be lited to,.
dentists, osteopaths, podatrsts, optometrsts, physicians ' assistats, nurse practitioners , and
veterinarans. If " physician " dispensing for profit is il-advised, then other practitioners ' dis­
pensing for profit is il-advised as well.

            Urge lawmakers and regulatory agencies to reuir dispensing prescrbers to do so
            dictly to the patient. Special emphasis should be placed upon reuirments that
            prescribers authorized to dispense do so dictly to the patient , rather than delegat-
            ing responsibility or activities in any way.

It is dagerous enough to elimiate the safety net of overlapping responsibilities between
physicians and  pharacists by allowing physicians to dispense to patients without pharacist
involvement. The growing practice by dispensing physicians of delegatig dispensing func­
tions to nures or nonprofessionals increases the chances for error and incomplete or inac-
curate information.

Every effort must be made to insur    that physicians do not delegate   this important work.

           Update the char of state laws to reflect recent changes. The char classifying varous
           elements of state laws should be updated to reflect the enclosed clarfications and
           recent changes in California , Florida, and Iowa.

Attached for the Inspector s use are letters and supportng documents from the Calfornia
Florida, and Iowa Pharacists Associations. These documents addrss specific elements of
the char dealing with state laws and should be used to make the char as up-to-date as pos-
sible.

In closing, APhA thanks the Inspector General for the opportunity to comment on a well-re-
searched and well- wrtten inspection report. It is our hope that the recommendations con­
tained in this letter wil be considered carefully for inclusion in the fmal report. In so doing,
the American public might be one step closer to protection from the il effects of a dagerous
practice. We are willing to meet with you at any time to discuss these issues, and we look for-
ward to receiving your final report.

OIG RESPONSE TO APHA COMMENTS

We appreciate the positive response of the APhA to our overall report and offer the following
comments with respect to their suggestions.
The APhA suggests the report support Federal legislation to limit physician dispensing. We€
believe any Federal legislation must take into account curnt State regulation on this subject.€
We hope this analysis wil be useful to government policymakers at al levels as they design a€
framework for further regulation of this practice.€

The APhA encourges Federa agencies to assist in enforcement of State laws and the Depar-€
ment, in parcular, to ensure that dispensing prescbers meet mium stada ofphar,,
macy practice. APhA points out that dispensing stadads for pharcists ar more strgent
than those for physicians. We have addrssed this disparty in our recommendation that a mi-
imum thrshold be adopted by States. We would also argue, as we have above, that curent
FDA policy is inconsistent in applying the prescrption dlUg labeling requirments of the
Federa Foo, Drug, and Cosmetic Act to drgs dispensed by pharacists but not to those dis-
pensed by physicians.

The APhA suggests that the OIG evaluate the conflct of interest aspect of physician drg dis-
pensing. Although an examation of this issue was beyond the scope of ths study, it may
warant study at a later date.

We agree with the thrst of APhA' s concern that our reommendations ought to apply to dis-
pensing by all prescribers rather than only to dispensing by physicians. In fact , we found that
in many States, the regulation goveming dispensing by physicians also included dispensing by
other types of practitioners such as dentists, osteopaths, podatrsts, veteriarans, etc.
However, because we limted our inquir to State requirements for dispensing by physicians,€
we cannot technically justify inclusion of other tyes of dispensing providers in the reommen-€
dations of this report.€

We shar the concern of APhA regarding the need for supervisory control over the dispensing..
process and have suggested, as par of the theshold of regulation we recommend, that States€
address diectly this aspect of dispensing in their regulatory reuirements.€

Finally, we appreciate the clarfication and updatig of State laws. We have noted these chan-€
ges in the report and its appendices.€

FEDERATION OF STATE MEDICAL BOARDS COMMENTS

The Federation of S tate Medical Boards appreciates the opportunity to comment on the   drt€
report entitled " Physician Drug Dispensing: An Overview of State Regulation.

The report is highly informative and presents a thorough examnation of State reuirments
for the dispensing of prescription drgs by physicians. It is importt to emphasize , however
that the findigs and recommendations of the report address regulation of dispensing by
physicians in amounts larger than free samples. Furter, in our view , any regulation of this
practice should be thoughtfully crafted keeping in mind the best interest of the patient.

The Federation supports the OIG recommendation that we and the National Association of
Boards of Pharacy work together to provide leadership to State boards in the regulation of
                                  ,"                                , "€




drg dispensing  by physicians. The FSMB revises its publication Guide to the Essentials of
a Modem Medcal Prctice Act, " every 3 years and wil consider includig the topic of drg
dispensing by physicians in the next edtion in 1991.

We look forward to receiving the final report.

OIG RESPONSE TO FSMB COMMENTS€

We appreiate the overall positive response of the FSMB to our report and, in parcular, its€
wi1gness to address physician drg dispensing in its guidelies to State medcal boars as
well as in cooperation with the effort of the National Association of Boards of Pharacy.

NATIONAL ASSOCIATION OF BOARDS OF PHARMACY COMMENTS€

I am pleased to comment on behal of the National Association of Boards of Pharacy
(NABP) in regard to the draft report entitled, "Physician Drug Dispensing: An Overview of
State Regulation. " The NABP is the national association of the 50 state boards of pharacy,
the Distrct of Columbia , Puerto Rico , the Virgin Islands , some provinces of Canada and , most
recently, the Pharacy Board of Victoria, Australa.

In our view , the report provides an excellent overview of physician drg dispensing. I want to
commend Dr. Yessian , Ms. Kvaal and other members of the project team for their thorough­
ness and objectivity. Without question, the issue of physician drg dispensing is controversial
and often elicits emotional and political considerations. The draf report steers clear of these
considerations and presents the facts of the issue, clearly and concisely.€

The following comments are offered by NABP to provide more insight into the issue and offer.
suggestions on how better to regulate the practice of physician drg dispensing.

FINDINGS:

The Incidence of Physician Drug Dispensing:

The incidence of physician drg dispensing is extrmely diffcult to document. Although the
majority of respor;dents to the survey estimated " that 5 percent or less of the physicians in
their states are dispensing for profit " it is important to understand that physician drg dispens-
ing is much more commonplace.

The report notes this on page 1   Physicians have always dispensed drgs to some degree
par of the practice of medicine. " The dispensing that occurs as " par of the practice of
medicine " because of the myrad of activities it may assume, is a significant threat to the
health and welfar of the public by the mere fact that it cannot be documented. However, the
physician drg dispensing we are referrng to, and examed by the report , is not the one      tie
 admnistration dose " or " staer dose " occurences. It is the consistent and repeated dispens­
ing of drgs by the physician diectly to his/her patients.
If asked to estiate this percentage, ignoring the qualfication of " for profit, " and having no
hard data to substantiate the estite, we would offer a percentage approachig 10 percent.
We can explain the low estiate in the report as being attbutable to the distinction of "for
profit, " This distiction may have skewed the respondents ' estiates.

Although this may seem a minor point, its significance extends beyond the nee to establish.
an accurte estimate. The significance lies in the number of individuals that.could
                                                                                     possi!
affected by ths practice. Even if the report s estimate of 5 percent is corrct, millons of
people are affected. N ABP would encourge the report to provide some explanation of the
magnitude of the problem in terms of the number of people afected by ths      practice.


State Requirements:€

We offer several comments in regard to state requirements to regulate dispensing by
physicians.

     The primar concern of the state boards in regulating physician dispensing is to protect
     the public health (page 5). The need for regulation and the concern expressed by the
     respondents reflects the danger that exists if the practice of physician dispensing is left
     unregulated or at the mercy of economic forces.€

     The reuirements imposed by the boars of pharacy on the regulation of pharacists
     practicing pharacy are more strngent than the requirments on the dispensing of
     prescription drgs by physicians , (pages 9- 10). This disparty is accentuated when one
     considers that the professional education and experience obtained by physicians in
     regard to drgs is far less than that of a pharacist.

     At the least, it would seem in the best interest of the public to impose the same require-
     ments for physicians as pharacists. Theoretically, because the physician lacks the
     same education and training as a pharacist, it would seem appropriate to requir more
     strngent requirements for the physician dispensing drgs. Strcter requirments for
     such practitioners might provide another safeguard to prevent inappropriate or unsafe
     dispensing by unqualifed practitioners.€

     The regulation governing phy ician dispensing must be effectively enforced. The report
     notes that States ' efforts to enforce their regulation is only moderately effective (page
     12) because most States lack the resources to enforce their regulatory requirments
     (page 14), have limited abilty to inspect the offces of dispensing physicians (page 14),
     find that the basis for the regulatory requirements is divided among the medcal and€
     pharacy boards or fall outside of the purview of both of these boards (page 15). These
     findigs ilustrate the need to develop, implement and enforce effective legislation. The
     states need diection and appropriate funding to fulfill their responsibilities. It is quite
     clear from the information NABP has reviewed that the authority over physician
     dispensing sometimes falls into a legislative quagmire asking the pharacy and medical
     boards to decipher what their responsibilties and enforcement activities ar.
      Physician dispensing should be regulated by the States. The great majority of
      respondents emphasize the importance of the States regulatig      physicians dispensing
      drgs (page   16). Although some respondents favored federal action (page 18), it would
      appear that the action preferred is not the passage of legislation but the development of
      uniform standads. Collectively, thugh organizations like NABP , the States have done
      an exemplar job of setting uniorm stadads and sharg inormation.

We believe that the regulation of physician drg   dispensing should   be the responsibilty of the
States. The States should also work together and establish uniform stadas. The        federa
government, if it indeed wants the practice of physician dispensing properly monitore, must
realze that the States ar the best source for this authority and provide fundig and other sup-
port.

RECOMMENDATIONS:€

We strongly concur with the recommendations set forth in the report. We would like to em-
phasize parcularly that the States need to take the initiative in implementig effective regula-
tion for physician dispensing, that States be empowered and funded to adequately enforce
such regulations and that NABP and the FSMB serve as the guiding forces for the develop-
ment of uniform standards and model regulations.

We would also like to add to the report s reommendations the comments made earlier that , at
the very least, physicians should be held accountable to the same reuirements that phar-
macists are. These requirments include , but are not limite to, the proper labeling, storage
and record-keeping for drgs. In essence, if a physician is dispensing drgs he/she must meet
the same miimum requirements that a pharacist must meet. Uniform stadards and require"
ments would protect the public from the dagers of inappropriate dispensing and unqualifed
practitioners. It would certainly provide the tools to more effectively regulate the practice and
provide licensing authorities with the proper record-keeping to monitor the practice.

NABP appreciates the opportunity to comment on this excellent report. If we can be of fur-€
ther assistance to you , please feel free to contact me. Thank you!€

OIG RESPONSE TO NABP COMMENTS

We appreciate NABP' s comments on the incidence of physicians who are dispensing prescrip-
tion drgs. As noted elsewhere, our inquir focussed on dispensing by physicians in amounts
larger than samples and starer dosages. We therefore asked regulatory offcials to estiate
the proporton of physicians dispensing drugs for profit in their States. We agree that although
the estimates of incidence var, a sizeable number of physicians and patients may nonetheless
be involved.

We agre with the observations of NABP regardig the States ' requirements for dispensing by
physicians. As noted previously, the requirments imposed on dispensing by pharcists in
most States are much more strngent that those imposed on dispensing by physicians. This dis-
party is even more   strg     in view of the additional requirements for licensure which al
States require of pharacists. Hence , in our recommendations , we state our view that should
States choose not to prohibit dispensing by physicians in amounts grater than samples or
staer dosages , they then , at the very least , should impose reuirements to reuce ths inequity
in regulation of prescription drg dispensing.

We shar the concern of NABP regarding the nee for effective enforcement of existig.re..
quirments. Accordigly, we included with our recommendation on enforcement specifc ac-
tions States might consider for strngthening their enforcement efforts.
                                        APPENDIX /I€

METHODOLOGICAL NOTES

This study focused on State regulation of physicians dispensing prescription drgs from their
offices. Our inquiry concentrated specifcally on State-imposed requirments for dispensing,
prescription drgs in amounts grater than samples. Although we ar aware that other prac- .
titioners such as dentists may also dispense drgs, we chose to limt our inquir to physicians
because they constitute the largest group of medcal practitioners in each State.

The information for this study was based on   th tyes of inquir:
      Review of a wide range of printed materials related to the practice of physician
      dispensing including congressional hearngs, drg repackager marketing materials,
      stUdies, consumer sureys, and arcles in the public press and in professional and trade
      association publications.

      Discussions with representatives of organizations and agencies concerned with issues
      related to physician dispensing. These included staff from the FDA and HCFA withn
      the Deparment , Federal Trade Commssion , Drg Enforcement Admnistration , U.
      Congress , American Medical Association, American Pharaceutical Association
      Competitive Health Care Coalition , (representing drg repackagig companes),
      Federation of State Medical Boards , National Association of Boards of Pharacy,
      National Association of Chain Drug Stores , and NARD (formerly National Association
      of Retail Druggists).

      Telephone discussions with staff from 108 State regulatory boards/agencies in all 50
      States and the Distrct of Columbia. These included 45 medcal boards, 45 pharacy
      boards, four centralized umbrella regulatory agencies, and, in 14 States , agencies that
      are separate from the boards but are involved in enforcement of drg laws. Usually we
      taled with the executive diectors of the boards, but in some instances, we spoke with
      other staff suggested to us by the executive diectors.

Two methodological considerations ar importt to note with respect to the telephone discus-
sions. First, although we spoke with 108 individuals using a single discussion guide, some
questions were asked only of a subset of the total universe. Also, a few individuals had no
comment for some questions. Therefore , we have included as respondents in our percentages
and figurs (N= - ) only those individuals who responded to the questions. Second , the guide
used in the telephone discussions consisted of both closed and open-ended questions. Because
we did not distrbute these guides prior to the discussions, the open-ended questions requird
respondents to answer spontaneously. Thus, the percentages of parcular responses to these
questions var more than would have been the case had the respondents been presented with
limited response options or had they reviewed the questions prior to the discussions.
Spreadsheet of the States ' Regulatory Requirements

The spreadsheet , included as figu   n , summarzes regulatory reuirments implemente by
the States as of August 1 , 1988. Information about the reuirements was gathere       priary
though the telephone discussions with officials from those reguatory boars/agencies havig
major responsibility for enforcement within each State. We chose ths approach for two
reasons. First, we could locate no readiy accessible, comprehensive,. and up-todate co
tion of all the States ' statues and regulations goveming the practice of physician dispensing.
Second, we found that recent summes of State regulation prepar by the Arzona Board of
Pharacy (1986), American Medcal Association (1987), National Association of Boars of
Pharacy (1987), and the Federation of State Medcal Bbars (1988) were sometimes in dis-
agreement or were not complete for all States. Therefore, we developed for our own use a
checklist which grouped into five types of regulation the requirements most commonly
adopted by the States. After refining the checklist according to comments received from
selected national organizations and State regulatory boards, we mailed copies to respondents€
prior to the telephone discussions so they would be famliar with the information we were€
seeking. By completig the checklist durg the telephone discussions, we were able to obtan€
the comprehensive, up-to- date , specific information we needed.€

Because we relied priary on secondar sources for our information on State requirements,
we cannot confirm that the information is completely accurate or al- inclusive. As much as
possible, however, we compard the information gathered from al respondents within a State€
with each other as well as with copies of those States ' statutes and regulations available to us.€
We tred to resolve all inconsistencies with follow-up telephone cals to respondents.€

Classifcation of States by Restrictiveness of Regulation€
We classified the States according to the types of regulation in effect on August 1 , 1988€
as follows:€

      Extremely Restrictive Regulation   (4):€

      Massachusetts, Montana , Texas , Utah

      These States have regulation that limts physician dispensing to emergencies , or to situa-€
      tions in which pharacy services ar unavaiable , or the physician is meeting the€
      patient's imediate needs (Type I). Respondents from these States all described their€
      regulation as essentially prohibiting physicians from dispensing. We excluded Arzona€
      from this category because the medcal and pharacy boards reported that their practice€
      acts differ over whether dispensing is allowed or is limited to emergency situations only.€
                                                                                                     ..

      Very Restrictive Regulation €       (3):

      Arkansas,            ebraska, ()klorna

      These States require physicians to receive approval or a permt from a State regulatory
      board prior to dispensing (Type n). We included only these States in this category be-
      cause the reuired board approval reportedy has ben given very ' spargly. .

      Moderately Restrictive Regulation (13):

      Arzona, Connecticut, Florida , Georgia, lliiois, Iowa , Louisiana, Michigan , Mississip-
                  evada,    orth Carolina , Oregon , Washington

      These States have some or all of the procedura requirments (Type V) as well as one or
      more of the requirements from Type n (dispensing physicians must identify themselves
      to regulatory boards/agencies), from Type 1l (limitations on fees and profits), and from
      Type IV (patient choice).

      We excluded     ew Hampshir from this category because its registration reuirement ap-
      plies only to physicians in professional associations or corporations that dispense drgs.
      Virginia and West Virginia were also excluded because respondents there concurred
      that the regulation restrcting profit is so vague that the restrction , in practice , is mean­
      ingless.

      Minimally Restrictive Regulation           (25):

      Alabama, Calfornia    , Colorado, Delaware, Distrct of Columbia, Idao, Indiana , Kan-
      sas , Kentucky, Maine , Minnesota, Missour ew Hampshie, New Mexico ew York
        ort Dakota , Ohio, Pennsylvania , South Carolina , South Dakota, Tennessee, Vermont,
      Virginia , West Virginia, Wisconsin

      These States have procedural requirements (Type V) only.€


      No Regulation (6):

      Alaska , Hawaii , Marland*            ew Jersey, Rhode Island , Wyoming

     These States reported having implemented no regulation as of August 1 , 1988.

* Both Maryland    and Virginia wil implement recent statutory changes after regulations have been
  developed. On the basis of these changes, bOlh Slates would be considered 10 hae moderalely
  restrictive regulation.
California implemented the following new additional requirements on Januar 1 , 1989:€

      Dispensing physicians must offer a wrtten prescription to patients (IV g) and provide
      patients with wrtten disclosure regardig choice to obtan prescriptions from a
      physician or from a pharacy (IV h);
      Dispensing physicians must store all drgs in a secure area (V I);
      State licensing board shall encourage physicians to tae a course in
      pharacology/pharaceuticals as par of contiuing education requirments;
      Varous requirements were added to handlg of complaints and for status reports to the
      legislatue in 1990 and 1991 on complaints.


On the basis of these changes , Calfomia s regulation would be considered moderately restrc-
tive.

Florida implemented the following new reuirments     on October 1 , 1988:

      Requirement for continuing education repealed (II d);
      Added to existing registration requirement a fee of $25;
      Dispensing physicians must provide wrtten prescription to patients (IV g) and orally or
      in wrting advise patients of choice in filing prescriptions (IV h);
      Mandatory inspections of offices of dispensing physicians.

On the basis of these changes, Florida remains a State with moderately restrctive regulation.
                                         APPENDIX /I€

  OTHER REGUlATORY REQUIREMENTS FOR PHYSICIAN DISPENSING AS OF
                         AUGUST 1, 1988€
CALIFORNIA€

    Drgs must be necessar to tratment of the condition for which the patient is under'
    care.
    Use of mechanical dispensing devices is prohibited unless the devices and contents are€
    owned by the physician. Leasing of drg-vending machines is prohibited€
    Dispensing Schedule II controlled substaces is prohibited except in an amount
    necessar for 72 hours.

FLORIDA€

    Dispensing physicians must comply with requirments of the Florida Pharacy Act
    regarding substitution of drgs.

IOWA€

    Upon a physician s authorization, a physician assistant or a registered nurse may supply
    drgs to patients when pharacy services are not available or when the supplying of
    such drgs is in the best interests of the patient. (This has been interpreted to mean rual
    clinics only. )   Additionally, such rual clinics must secure a consultant   pharacist to
    provide advice regarding the distrbution ,    storage, and appropriate use of drgs.

MONTANA€

    Dispensing by physicians " as a usual course of doing business " is prohibited;
     dispensing of drugs occasionally " is permtted.

NORTH DAKOTA

    If the amount of drg dispensed is greater than a 72- hour supply, the dispensing is
    subject to requirements for labeling, record- keeping, patient counselling and patient
    profile system.

PENNSYLVANIA€

    Physicians who dispense sympathomimeticamies must have approval frm              the medcal

    board and must meet special reportng requirements.€

VIRGINIA€

     Permtted" physicians in rural areas are allowed to dispense to their own and other€
    patients.€
                          , "          , "                                              , "





                                         APPENDIX IV€

ENDNOTES€

    For a discussion of the historical background of physician dispensing, see Michael L.€
    Glassman and Donald L. Marn Physician Dispensing of Prescription Drugs: An€
    Economic and Policy Analysis, " Glassman- Oliver Economic Consultants, Inc.€
    Washington , D. C., 1987.€

    Joy Swiss Thompson          Opportunities in the Pharaceutical Repackaging Market , An€
    Industr Study, " Wessels ,    Arold & Henderson , Minneapolis, Miesota , October 1987.€

     New Investment Market In Dispensing of Pharaceuticals, The Srock Marker€
    Magazine, Januar - Februar 1987 , pp. 4-€

3. For a discussion of issues surrounding physician dispensing, see " Physician
                                                                            Dispensing of€
    Drugs " Hearg before the Subcommittee on Health and the Environment of the Commt-€
    tee on Energy and Commerce , United States House of Representatives, Apri 22 , 1987.€

    The requirements for controlled substances are contaied in the Controlled Substances€
    Act of 1970 and the Comprehensive Crime Control Act of 1984. The Prescription Drug€
    Marketig Act of 1987 amended the Federal Food , Drug, and Cosmetic Act to impose€
    restrctions on drg   samples.



    For pharacy standards of practice , see Samuel H. Kalman and John F. Schlegel Stad-€
    ards of Practice for the Profession of Pharacy, American Pharmacy, Vol. NS 19,€
    No. 3, March 1979/135 , pp. 21- 33. For a summar of State pharacy laws, see Survey            of

    Phal7cy Law-- 1987     88, National Association of Boards of Pharacy,   Park Ridge ,       Il-€
    linois.€

    The Srock Marker Magazine op. cit.€

     Pharacists Protest Doctors ' Drug Sales,    The New York Times,   September 17 ,   1987,€
    Section B , p. I.€

     One- Stop Medicine Sciendfic American November 1987.€

    Arold S. Reiman , M. D.," Doctors and the Dispensing of Drugs, The New England€
    Journal afMedicine July 30, 1987, pp. 311- 312.€

    Regulatory officials were asked to estimate the proportion of physicians in their States€
    who were dispensing for profit in an effort to distinguish them from those dispensing only€
    samples and starer dosages.€
    We excluded regulation limited exclusively to controlled substances and child-resistat
    packaging because of Federa reuirments applicable to dispensing physicians nation-
    wide.

9. The requirements discussed below and summarze in       figu II and   figue II are those im-
    plemente by the States as of August 1 , 1988. We have recently become aware of new re-
    quirments implemented since August 1988 in Californa and Florida. Those changes ar-
    noted in appendi II but could not be incorporated here without our having reconfirmed
    requirements for al the States.

10. This regulation is separate from the registration require by the Drg Enforcement Ad-
    ministration for controlled drgs.

                                      An Overview,
II. Medical Licensure and Discipline: €            Offce of Analysis and Inspections,
    Offce of Inspector General , Deparent of Health and Human Services, June 1986.
